<html>
<title> - FEDERAL, STATE, AND LOCAL EFFORTS TO PREPARE FOR THE 2008 ELECTION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                    FEDERAL, STATE, AND LOCAL EFFORTS 
                    TO PREPARE FOR THE 2008 ELECTION 

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION, 
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                                AND THE

                       SUBCOMMITTEE ON ELECTIONS

                                 OF THE

                   COMMITTEE ON HOUSE ADMINISTRATION

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                           SEPTEMBER 24, 2008

                               ----------                              

                           Serial No. 110-148

                      (Committee on the Judiciary)

                               ----------                              

     Printed for the use of the Committee on the Judiciary and the 
                   Committee on House Administration


      Available via the World Wide Web: http://judiciary.house.gov
                and http://cha.house.govFOR SPINE deg.


   FEDERAL, STATE, AND LOCAL EFFORTS TO PREPARE FOR THE 2008 ELECTION











                   FEDERAL, STATE, AND LOCAL EFFORTS 
                    TO PREPARE FOR THE 2008 ELECTION

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION, 
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY

                                AND THE

                       SUBCOMMITTEE ON ELECTIONS

                                 OF THE

                   COMMITTEE ON HOUSE ADMINISTRATION

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 24, 2008

                               __________

                           Serial No. 110-148

                      (Committee on the Judiciary)

                               __________

     Printed for the use of the Committee on the Judiciary and the 
                   Committee on House Administration


      Available via the World Wide Web: http://judiciary.house.gov
                        and http://cha.house.gov

                              ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-612 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

  Subcommittee on the Constitution, Civil Rights, and Civil Liberties

                   JERROLD NADLER, New York, Chairman

ARTUR DAVIS, Alabama                 TRENT FRANKS, Arizona
DEBBIE WASSERMAN SCHULTZ, Florida    MIKE PENCE, Indiana
KEITH ELLISON, Minnesota             DARRELL ISSA, California
JOHN CONYERS, Jr., Michigan          STEVE KING, Iowa
ROBERT C. ``BOBBY'' SCOTT, Virginia  JIM JORDAN, Ohio
MELVIN L. WATT, North Carolina
STEVE COHEN, Tennessee

                     David Lachmann, Chief of Staff

                    Paul B. Taylor, Minority Counsel
                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California,             VERNON J. EHLERS, Michigan,
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                William Plaster, Minority Staff Director
                                 ------                                

                       Subcommittee on Elections

                  ZOE LOFGREN, California, Chairwoman
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California           VERNON J. EHLERS, Michigan
ARTUR DAVIS, Alabama





















                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 24, 2008

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on Elections, 
  Committee on House Administration..............................     1
The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Ranking Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties, Committee on 
  the Judiciary..................................................     3
The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties, Committee on 
  the Judiciary..................................................     9
The Honorable Kevin McCarthy, a Representative in Congress from 
  the State of California, and Ranking Member, Subcommittee on 
  Elections, Committee on House Administration...................    10

                               WITNESSES

Mr. Pedro A. Cortes, Secretary of the Commonwealth of 
  Pennsylvania, President, National Association of Secretaries of 
  State (NASS)
  Oral Testimony.................................................    69
  Prepared Statement.............................................    71
Mr. David M. Farrell, Deputy Assistant Secretary of State and 
  Director of Elections, Office of the Ohio Secretary of State
  Oral Testimony.................................................   181
  Prepared Statement.............................................   184
Mr. Rokey W. Suleman, General Registrar, Fairfax County Office of 
  Elections
  Oral Testimony.................................................   187
  Prepared Statement.............................................   190
Mr. Doug Lewis, Director, National Association of Election 
  Officials
  Oral Testimony.................................................   193
  Prepared Statement.............................................   195
Ms. Grace Chung Becker, Acting Assistant Attorney General, Civil 
  Rights Division, U.S. Department of Justice
  Oral Testimony.................................................   224
  Prepared Statement.............................................   227
Mr. Paul F. Hancock, Partner, Kirkpatrick and Lockhart Preston 
  Gates and Ellis, LLP
  Oral Testimony.................................................   236
  Prepared Statement.............................................   238
Ms. Karen K. Narasaki, Executive Director, Asian American Justice 
  Center
  Oral Testimony.................................................   245
  Prepared Statement.............................................   246
Mr. Bryan P. O'Leary, Public Policy Consultant, Crowell Moring
  Oral Testimony.................................................   265
  Prepared Statement.............................................   277
Mr. James Terry, Chief Public Advocate, Consumers Rights League
  Oral Testimony.................................................   286
  Prepared Statement.............................................   287
Ms. Jocelyn Benson, Assistant Professor, Wayne State University 
  Law School
  Oral Testimony.................................................   300
  Prepared Statement.............................................   302
Ms. Kristen Clarke Avery, Co-Director, Political Participation 
  Group, NAACP Legal Defense Fund
  Oral Testimony.................................................   311
  Prepared Statement.............................................   313

                                APPENDIX

Material Submitted for the Hearing Record........................   419


                   FEDERAL, STATE, AND LOCAL EFFORTS 
                    TO PREPARE FOR THE 2008 ELECTION

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 2008

              House of Representatives,                    
          Subcommittee on the Constitution,                
             Civil Rights, and Civil Liberties,            
                Committee on the Judiciary, and the        
                             Subcommittee on Elections,    
                         Committee on House Administration,
                                                    Washington, DC.

    The Subcommittees met, pursuant to notice, at 10:20 a.m., 
in room 2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee on the Judicary) 
presiding.
    Present from the Subcommittee on the Constitution, Civil 
Rights, and Civil Liberties: Representatives Conyers, Nadler, 
Lofgren, Davis of Alabama, Ellison, Watt, Cohen, Franks, Issa, 
King, and Jordan.
    Present from the Subcommittee on Elections: Lofgren, 
Gonzalez, Davis of Alabama, Davis of California, McCarthy, and 
Ehlers.
    Also present: Representatives Waters and Delahunt.
    Staff present from the Subcommittee on the Constitution, 
Civil Rights, and Civil Liberties: LaShawn Warren, Majority 
Counsel; and Paul Taylor, Minority Counsel.
    Staff present from the Subcommittee on Elections: Tom 
Hicks, Majority Counsel; and Gineen Beach, Minority Counsel.
    Mr. Conyers. Good morning. The Subcommittees will come to 
order.
    I have asked the Chairwoman of the Subcommittee on 
Elections, Zoe Lofgren from California, to begin the 
proceedings.
    Ms. Lofgren. Thank you, Chairman Conyers.
    I think this is an important, and really unprecedented, 
joint hearing between the Elections Subcommittee of the House 
Administration Committee and of course, the Constitution 
Subcommittee of the Judiciary Committee.
    I am honored to serve on both the Judiciary Committee and 
Chair the Elections Subommittee allowing us to focus on really 
one of the most important issues that faces our country, which 
is to make sure that we have an election that makes sure that 
individuals who are eligible to vote are able to vote, that our 
American citizens come to the polls and are not 
disenfranchised.
    The election 4 years ago and 8 years ago left a very bad 
taste in the mouths of Americans because there were people who 
were not able to vote. They were disenfranchised. And if that 
happens again--if half of America thinks that the election was 
not fair, that people who had a right to vote were denied that 
right--we are going to be in a real pickle in this country.
    And so this hearing is to hear from election officials, but 
also to make sure that we have the proper proactive effort to 
make sure that people are not disenfranchised again.
    Now, how can you be disenfranchised? In many different 
ways. I actually personally spoke to people who waited 8 hours 
to vote in a precinct in Ohio. If you have to wait 8 hours to 
vote, you are disenfranchised.
    Now, for students, their classes were canceled, so they 
could stand in line. But if you are an employed person, you 
can't take off 8 hours from work to vote. And you shouldn't 
have to.
    And so we know that if that happens again, Americans are 
going to feel that something funny was going on with the 
electoral process. And I expect that we will identify those 
areas where problems are likely and proactively step forward 
and say, this is the emergency effort you need to make. If you 
need to have backup paper ballots so you can have your 
registration people go along the line and check in those voters 
and vote so they don't have to wait 8 hours, we need to plan 
for that.
    Equipment failures, voter registration lists, and I want to 
talk about vote caging. When Monica Goodling appeared before 
this Committee and talked about the Justice Department people 
who took time off to do vote caging, and I remember saying, 
``What is it?'' And I turned to another Member of the Judiciary 
Committee, I said, ``What is that?'' And he didn't know, 
either.
    Well, it turns out, I have now learned, that it is a very 
racist and I think illegal activity that is intended to 
disenfranchise voters. What has happened around the country is 
that registered letters have been sent in African-American or 
other minority communities, and if they are not responded to, 
then that person is identified as not a real voter.
    Well, there is a lot of reasons why people might not want 
to go down to the post office and pick up a registered letter. 
And to allow for that kind of systematic suppression of 
minority voting, I think, is a civil rights violation and I 
think ought to be proactively prohibited.
    Not only does it disenfranchise the American citizen who is 
a voter, but the fight over this disenfranchises everybody else 
who is waiting in line--so creating tremendous delay so that 
people have to give up and go back to work.
    This is so important for our country, that we get this 
right. But I want to hear from the witnesses what they are 
doing. This is not the end of what we are going to do. Tomorrow 
the Elections Subcommittee is having a hearing on the 
suppression of student votes that we have learned about, where 
students have been told that if they actually register at their 
campus, which they are permitted to, that they will have their 
student aid removed. That is false. What are we doing as a 
government to prevent that disenfranchisement?
    So this is an important hearing, Mr. Chairman. I am glad to 
participate in it, and I hope that the efforts that we will 
make will have a positive impact on having a fair vote this 
November.
    And I yield back.
    Mr. Conyers. Thank you so much for starting us off.
    I am pleased to recognize Trent Franks, an outstanding 
Member of House Judiciary Committee and Ranking Member on the 
Constitution Subcommittee, from Arizona.
    Mr. Franks. Well, thank you so much, Mr. Chairman.
    Mr. Chairman, it has been said so often that voting is the 
lifeblood of a democracy. And certainly there are no legitimate 
leaders in a democracy without legitimate elections. And I 
indeed look forward to hearing from our witnesses here today 
regarding the good work that the voting section of the Civil 
Rights Division has done and will do to protect voting rights.
    And I am told they may have their hands rather full this 
year. I say that because in recent years, one particular 
organization has become increasingly embroiled in illegal 
voting activity. That organization is called ACORN, which 
stands for Association of Community Organizations for Reform 
Now. Let me read that again: Association of Community 
Organizations for Reform Now.
    It seems that one very famous community organizer got that 
in his resume by being an organizer for an association of 
community organizations for reform now. Presidential candidate 
Barack Obama is highlighted in this regard. ACORN is one of the 
organizations he helped organize, as Senator Obama served as a 
lawyer for Association of Community Organizations for Reform 
Now.
    Now, I think it is important to take a look at ACORN's 
resume directly. And as you will hear, it almost sounds more 
like a rap sheet these days. As John Fund of the Wall Street 
Journal has reported, in Seattle local prosecutors indicted 
seven workers for ACORN. Washington Secretary of State Sam Reed 
once said, ACORN's campaign of phony registration forms is 
``the worst case of voter registration fraud in history.'' And 
of course he is speaking of Washington State.
    But of the 2,000 names submitted by ACORN, only nine were 
confirmed as valid. Out of 2,000, nine were confirmed as valid. 
The rest, over 97 percent, were fake.
    In Missouri, officials found that over 1,000 addresses 
listed on voter registration lists resulting from ACORN's 
efforts didn't exist. Eight ACORN employees pleaded guilty to 
Federal election fraud there. In Ohio, a worker for one ACORN 
affiliate was given crack cocaine in exchange for fraudulent 
registrations that included underage voters and dead people.
    And just a few weeks ago, ACORN curtailed more of its voter 
registration activities in Ohio after election officials 
announced that they were investigating its suspicious 
activities there. ACORN workers repeatedly handed in the same 
names on a number of voter registration cards that show that 
person living at different addresses. Other times, cards have 
the same name listed, but a different date of birth. Still 
others showed a number of people living at an address that 
turned out to be a restaurant.
    In March of this year, Philadelphia officials accused ACORN 
of filing fraudulent voter registrations in advance of the 
April Pennsylvania primary. Also in Pennsylvania, another ACORN 
worker recently questioned by Dauphin County investigators 
about bogus voter registration forms, is now a wanted man with 
regard for information leading to his capture. He is accused by 
authorities of submitting more than 100 fraudulent voter 
registration forms he collected and is charged with 19 counts 
of perjury, making false statements, forgery and identity theft 
in connection with the voter registration forms.
    In February, the special investigations unit of Milwaukee, 
Wisconsin, police department issued a report that concluded 18 
people were sworn in as deputy registrars that were convicted 
felons and under the department of corrections supervision. Of 
the 15 felons who listed a sponsoring organization, eight named 
ACORN--that is, Association of Community Organizations for 
Reform Now--as their sponsoring agency.
    And last month, the Milwaukee election commission announced 
that criminal investigations could be launched against at least 
six voter registration workers for ACORN who tried to add dead, 
imprisoned or imaginary people to voter rolls.
    And the Detroit Free Press just reported last week that, 
``several municipal clerks across the state are reporting 
fraudulent and duplicate voter registration applications, most 
of them from ACORN.'' According to the Michigan Secretary of 
State's office, ``there appears to be a sizable number of 
duplicate and fraudulent applications and it appears to be 
widespread.''
    As one county clerk points out, trying to weed out all 
these fraudulent registration cases causes a huge slowdown in 
voting preparations and operations in general. As you can see, 
Senator Obama could probably filibuster a bill to allow more 
offshore drilling by simply reading ACORN's extensive rap sheet 
on the Senate floor.
    A recent article in The New York Times also revealed just 
how shady ACORN's financial operations can be, as well. As The 
New York Times reported, ACORN chose to treat the embezzlement 
of nearly $1 million as an internal matter and did not even 
notify its board. A whistleblower forced ACORN to disclose the 
embezzlement, which involved the brother of the organization's 
founder, who embezzled nearly $1 million from ACORN and 
affiliated charitable organizations. But a small group of 
executives decided not to alert law enforcement.
    Senator Obama is still involved with ACORN, despite its 
vast history of corrupting the election process and even its 
own finances. As recently was reported in the Pittsburgh 
Tribune Review: Senator Barack Obama's presidential campaign 
paid more than $800,000 to an offshoot of ACORN for services 
that the Democrat's campaign said they mistakenly 
misrepresented in Federal reports. The Obama campaign initially 
reported that the ACORN affiliate that received the $800,000 
used all money for polling, advance work, and event staging. 
But what did the ACORN affiliate really use the money for? It 
used it for the same, ``get out the vote projects,'' that has 
mired ACORN in criminal investigations in at least 12 states.
    Now, I commend the voting section act of the Civil Rights 
Division for the work its done to date. And I fully expect it 
will prosecute voting violations that may occur before and 
during the upcoming election. And with groups like ACORN 
involved in this year's election, the Department of Justice may 
well have to work overtime.
    And Mr. Chairman, with that happy thought, I----
    Ms. Lofgren. Would the gentleman yield----
    Mr. Franks [continuing]. Our witnesses, and----
    Ms. Lofgren. Would the gentleman yield for a question?
    Mr. Franks. Certainly.
    Ms. Lofgren. Because I would like to know, these 12 states, 
what are the 12 states, and what--because this is news to me.
    Mr. Franks. Well, I would be glad to follow up with you and 
put that in writing. Would that be all right?
    Ms. Lofgren. Well, I think you have made a rather 
inflammatory statement that I believe is false.
    Mr. Franks. We will----
    Ms. Lofgren [continuing]. And I think you should be 
prepared to----
    Mr. Franks. We will follow that up and if I----
    Ms. Lofgren. No. You can say the statement----
    Mr. Franks. If I have made any statement that is false, I 
will certainly be glad to correct it.
    Ms. Lofgren. You just made a statement indicating--I would 
ask unanimous consent that we place in the record a 
communication from ACORN refuting all of your points. But it is 
a defamatory statement to accuse a person of a crime. And if 
you can't back it up----
    Mr. Franks. Well, I quoted the Wall Street Journal and the 
Pittsburgh newspapers. Perhaps we should call them in here and 
see if they can straighten this out.
    Ms. Lofgren. Well, I--I am appalled that you would make a 
statement that you are unable to actually back up. And I thank 
the gentleman for yielding.
    Mr. Conyers. Does the gentlelady wish to put the 
statement--article in the record, the ACORN?
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Conyers. The Chair is pleased to call on the Chairman 
of the Constitution Subcommittee in the Judiciary Committee, 
Jerry Nadler of New York.
    Mr. Nadler. Thank you, Mr. Chairman.
    Mr. Chairman, the right to vote is the bulwark of all our 
other rights. Without an effective franchise, all our other 
rights are vulnerable. For that reason, the history of our 
country has been one of fulfilling the promise of the 
Declaration of Independence and the Constitution by 
progressively extending the right to vote to all citizens.
    That struggle has gone on for generations, but the struggle 
to ensure that the legal right to vote translates into an 
actual right to cast a ballot and have it counted remains far 
from fulfilled, as we know. We know that people waited in Ohio, 
for example, and probably in other places, 8, 9 hours to vote. 
And they had their votes taken away from them.
    We know that in 2000, the governor and the secretary of 
state of Florida conspired to hire a private firm to purge the 
voter lists, knowing that the error rate of that private firm 
was 20 percent--meaning that they knew that 20 percent of the 
voters whose names would be purged were perfectly legitimate 
voters. And that even if they were purging people who had no 
right to vote, they were also purging 20 percent--that is, 20 
percent of those they were purging had a right to vote and 
would be illegally disenfranchised by the deliberate acts of 
the governor and secretary of state of Florida, and they got 
away with it.
    We know that these kinds of things go on all over the time. 
We know that certain politicians engaging in inflammatory 
campaign rhetoric of questionable relevancy, such as we just 
heard about ACORN, in order to cover up the deprivation of the 
right to vote of many people.
    Now, let's take the case of ACORN for a moment. I am not 
going to talk about any specifics, because I don't know about 
any of the specifics. But let's assume that everything that was 
said was true. What does that indicate? It indicates that law 
enforcement ought to be looking into them and prosecuting, 
perhaps and to--whatever.
    It does not indicate, assuming that there is a group out 
there that is deliberately or because they hired people who 
don't know what they are doing, inadvertently improperly 
registering voters--it means that the registrars of elections, 
the boards of election, the department, whoever, should be 
carefully monitoring that and checking the validity.
    It does not mean that it justifies in any way all the vote 
caging and the voter suppression practices and the purging of 
legitimate voters that we know has gone on and that we are here 
to deal with. And it is really a red herring to distract 
attention from them. Certainly no one will justify anybody 
deliberately or even inadvertently registering people who 
should not be allowed to register--although most people should 
be allowed to register, obviously, and a lot of this is simply 
a problem with proper identification, especially with recent 
laws.
    But the fact is, the overwhelming problem is that 
legitimate voters are being denied the right to register or 
being denied the right to vote because of vote caging or 
because of improper purging or because of inadequate resources 
at the polls, or because of improper clerical procedures so 
that your name isn't there when you get there to vote.
    We saw, when the late congresswoman, our late colleague 
Julia Carson went to vote, she was denied the right to vote 
because her congressional ID was not sufficient voter ID under 
Indiana's laws, which was absurd, obviously. We saw that the 12 
nuns didn't have their identification because they didn't 
drive. And we know that much of the effect of a lot of these 
new laws is to deprive legitimate voters of their right to 
vote.
    So the question before us is how to make sure that 
everyone's right to vote is secured and to minimize any fraud 
or punitive fraud. And let me say one other thing here. We have 
seen--and I am sure it will be--I shouldn't say I am sure, 
perhaps it will be mentioned at this hearing--I have seen it in 
New York, I have seen it alleged in New York, I have seen it 
other places: if someone is registered in two places--they are 
registered in New York and Florida, they are registered in two 
different counties in New York, whatever--and this is evidence 
of massive fraud. No, it isn't.
    What it is, is evidence of is 20th century or 19th century 
technology. That when you registered, let's say in New York 
City, and you move to Miami, they don't necessarily remove your 
voting card until a couple of years go by in New York. It 
doesn't mean that you are voting in both places. That we have 
not seen demonstrated. We have heard a lot of loose rhetoric 
about people registered in two places. We have not a seen a lot 
of facts about people voting in two places, which is a very 
different question.
    So I hope that we will concentrate on how to make sure that 
people are enabled to cast their vote and have it counted when 
they are entitled to do so. And that, it seems to me, we have 
fallen badly down on the job. And when you can have a governor 
and a secretary of state knowingly, deliberately, and 
admittedly purge 20 percent of--that is, use a purge list which 
they know and don't deny and freely admit is inaccurate 20 
percent--and no one says, why don't we impeach the governor? No 
one criticizes the governor, we just let it go by the board--it 
shows that we do not regard voting rights with as much care as 
we ought to.
    I hope this hearing will go a long way towards--will go 
some way toward changing that. I must apologize at this point. 
I am going to have to leave fairly soon for a markup of the 
Transportation Committee. In Congress they expect you to be in 
two or three places at the same time. It is still difficult, 
despite modern physics.
    But I congratulate the Chairman of the Committee for 
calling this hearing, because it is a necessary step in a 
necessary battle.
    I thank you, and I yield back.
    Mr. Conyers. Thank you very much.
    I am pleased now to recognize Kevin McCarthy, the Ranking 
Member of the Elections Subcommittee of the House 
Administration Committee. And we would like to invite you for 
any opening remarks, sir.
    Mr. McCarthy. Thank you, Mr. Chairman.
    I appreciate you having this joint hearing today. You know, 
we are like 41 days away from the election. And if I could 
start, Mr. Chairman, I would ask unanimous consent to submit 
some material to include in today's proceedings, and----
    Mr. Conyers. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. McCarthy. Part of this will probably answer some of the 
questions of my colleague, Mrs. Lofgren.
    This section right here is just from the Department of 
Elections, State of Michigan--pertaining to ACORN, whereas some 
of these applicants, 15 years old, 7 years old, lives in 
Canada, but--could answer a lot of questions you had of my 
colleague, Mr. Frank, as well.
    But today this hearing and these panels really is something 
House Administration has been looking at over the last 2 years. 
We have had a contested election we have studied. We have gone 
through looking at voter fraud.
    We have also looked at--which I am very interested in 
hearing in the second panel, Mr. O'Leary--also those who are 
being denied their right to vote are Servicemen and women. You 
will find today, and hopefully many will listen, that a number 
of those votes are not counted. They arrived too late--these 
are our brave men and women serving overseas. And I think when 
you think about defending this country and the right to 
participate in an election, we can actually do a lot more. We 
can do a lot better. And we have 41 days to go.
    We have had a hearing on a number of bills. One, the MVP 
Act, I think will solve a lot of the problems as we look 
forward.
    But the hearing today, we will look at the voter fraud. We 
will also look at the eligibility and making sure all of the 
votes are counted and that those serving in other parts of this 
world defending this Nation have the right to vote, as well.
    And I thank you, Mr. Chairman. I yield back.
    Mr. Conyers. Thank you very, very much.
    We also have our good friend from the Judiciary Committee, 
Jim Jordan of Ohio. Did you have any comments you would like to 
make at this time, sir?
    Mr. Jordan. No, thank you, Mr. Chairman. I will have some 
questions later.
    Mr. Conyers. All right. Very good.
    And we also have Charles Gonzalez, distinguished Member 
from Texas on the Elections Subcommittee. We would like to 
welcome him here to Judiciary and ask if he has any comment.
    Mr. Gonzalez. [OFF MIKE]
    Mr. Conyers. Thank you very much.
    We have some distinguished witnesses in the first panel: 
Mr. Lewis, Mr. Suleman, Mr. Farrell, and Mr. Cortes.
    Pedro Cortes is the current secretary of the Commonwealth 
of Pennsylvania. He is also the chief election official and 
president of the National Association of State Secretaries. 
Before that he was executive director of the Pennsylvania 
Governors' Advisory Commission on Latino Affairs and served 
with the Pennsylvania State Civil Service.
    We welcome you. All witnesses' testimony will be included 
in the record. And we invite you to begin our discussion today. 
Welcome to the Committee.

TESTIMONY OF PEDRO A. CORTES, SECRETARY OF THE COMMONWEALTH OF 
PENNSYLVANIA, PRESIDENT, NATIONAL ASSOCIATION OF SECRETARIES OF 
                          STATE (NASS)

    Mr. Cortes. Thank you, Mr. Chairman.
    Good morning, Chairman Conyers, Chairwoman Lofgren, Ranking 
Member Franks, Chairman Nadler, Ranking Member McCarthy. I am 
honored to be here today to testify in two capacities: as 
Pennsylvania Secretary of State and chief election official; 
and as president of the National Association of Secretaries of 
State, also known as NASS.
    I would like to discuss the states' readiness for the 
November 2008 election, including efforts in Pennsylvania.
    The Nation's state chief election officials have been 
working hard to ensure eligible voters will have a positive 
voting experience and an election that is fair, accurate, 
accessible and secure. There has been a dramatic increase in 
voter registration figures, and predictions of high turnout. 
Nearly 58 million Americans voted in the 2008 presidential 
primaries. I am here to report that state election officials 
take their responsibilities seriously, and that the states will 
be prepared for a potential record turnout in November.
    NASS proactively conducted a survey of all states' chief 
election officials. Our objective was to gain insight into the 
states' efforts to inform and prepare voters, increase and 
facilitate voter participation, ensure that polling places run 
smoothly on Election Day, and communicate election results to 
the public. The NASS report, which is being released today, is 
titled, ``Engaging the Energized Electorate: NASS Survey on 
State Preparations for the 2008 Presidential Election.'' I have 
copies of that report available with me.
    The survey responses demonstrated the states have 
concentrated their preparations in three major areas: one, 
voter participation; two, polling place management; and three, 
election results reporting.
    First, to enhance voter participation, states are 
conducting vigorous statewide public outreach campaigns to 
inform voters about everything from registration deadlines to 
identification requirements and absentee or early voting 
options. A growing number of states are using the internet and 
social networking sites such as YouTube and MySpace. Many 
states, including Pennsylvania, are also offering tools such as 
polling place locators, voter registration lookups, and 
provisional ballot trackers.
    Others have targeted outreach efforts to mobilize young 
voters, senior voters, voters with disabilities, military and 
overseas civilian voters and alternative language voters, among 
others.
    The second area of preparation, polling place management 
and operations, seeks to ensure the positive experience on 
Election Day. Efforts in this area include broadening the pool 
of potential poll workers by seeking students, bilingual 
citizens, private sector and state employees; maintaining 
consistency in poll worker training; and establishing standards 
to provide assurance that poll workers are properly equipped to 
administer voting, handle emergencies, and use election 
systems.
    Finally, states are enhancing election results reporting 
features for 2008 while maintaining transparency to boost voter 
confidence. This is done via new interactive Web sites and 
through laws enacted for improving post-election audits and 
audit procedures.
    NASS also created CanIVote.org, the association's 
nonpartisan Web site that serves as a portal to state and local 
election sites. In addition to voter registration lookups and 
polling place locators, voters can use the site to find state-
specific information on polling place hours, voter registration 
deadlines, identification requirements and how to become a poll 
worker.
    In my home state of Pennsylvania, election officials remain 
committed to eliminating barriers to voting and to conducting 
fair, accurate, accessible and secure elections. The Department 
of State, working closely with the Commonwealth's 67 counties, 
is building upon the lessons of the primary to prepare for 
November 4.
    One way we are preparing in Pennsylvania is through the use 
of technology. For example, the Commonwealth has benefited from 
the Statewide Uniform Registry of Electors, more commonly known 
as SURE. SURE is the centralized voter registration and 
election management system used by the counties and the 
department to ensure the accuracy and integrity of the 
Commonwealth's voter registration records. All 67 counties have 
used SURE since 2006. The innovative use of technology gives 
counties increased flexibility for more employees to enter 
voter registration data.
    Pennsylvania also values voter education. The Department is 
proud of Ready.Set.Vote, an interactive voter education 
campaign that features television, radio, print, online and 
out-of-home advertising. The campaign's goal is to ensure that 
Pennsylvania voters are familiar with voting processes, rights 
and technology.
    An important component of this campaign is VotesPA.com, the 
Commonwealth's online voting information and resource center. 
Through VotesPA.com, Pennsylvanians can find information about 
voting rights and procedures, locate directions to their 
polling place, and may even sign up for election-related 
reminders sent directly to their mobile devices.
    In August, Pennsylvania adopted an innovative, secure 
online tool offered by the Federal Voting Assistance Program at 
the Department of Defense that provides military and overseas 
citizen voters the option of requesting and/or receiving 
absentee ballots electronically through the Federal program's 
Web site. As of today 34 counties, including Philadelphia and 
Allegheny, have availed themselves of this program.
    These are only a few examples of the many election 
initiatives underway in Pennsylvania and throughout the United 
States. Based on these preparations, I am confident that the 
Nation, including Pennsylvania, will be well prepared for the 
general election and that we will have a well-informed 
electorate.
    On behalf of my colleagues at NASS, thank you for your 
support in safeguarding our most fundamental right of 
citizenship. I appreciate your invitation to testify today. 
Thank you.
    [The prepared statement of Mr. Cortes follows:]
                 Prepared Statement of Pedro A. Cortes

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Conyers. Thank you, sir. Did you want to put the report 
\1\ in the record?
---------------------------------------------------------------------------
    \1\ The NASS report printed in this hearing record is a revised 
version of the original report referred to by the witness. The revised 
version of the report was the electronic version of the file available 
at the time of the printing of this hearing.
---------------------------------------------------------------------------
    Mr. Cortes. If I may, I would like to do that, Mr. 
Chairman.
    Mr. Conyers. All right. Without objection, so ordered.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Conyers. Now, this is a new report. Did it just come 
out today or yesterday?
    Mr. Cortes [continuing]. Today.
    Mr. Conyers. Today. You are----
    Mr. Cortes. The report is a survey of all the states, the 
50 states and the District of Columbia, that reports on the 
various steps that the states are taking to first, inform 
voters about their rights and the rules of voting and engaging 
those voters; second, ensuring that voters have a smooth and 
fair experience at the polls on Election Day; and third, to 
ensure a report on increased capabilities to accurately report 
results on election night.
    Mr. Conyers. Thank you.
    The Deputy Assistant Secretary of State and the Director of 
Elections for Ohio Secretary of State Jennifer Brunner is Mr. 
David Farrell. We welcome you here today. You oversee the 
election section, the campaign finance section, and the field 
staff section. He was formerly a member of the Clark County 
board of elections for 7 years, and the chairman of the board 
for 3 years before that.
    Welcome to this hearing.

 TESTIMONY OF DAVID M. FARRELL, DEPUTY ASSISTANT SECRETARY OF 
 STATE AND DIRECTOR OF ELECTIONS, OFFICE OF THE OHIO SECRETARY 
                            OF STATE

    Mr. Farrell. Thank you.
    Good morning, and thank you for the opportunity to offer 
testimony on Ohio's state and local efforts to prepare for the 
2008 general election.
    The state of election system in Ohio has come a long way 
since Secretary Brunner took office in January of 2007. Between 
that time and now, Secretary Brunner has taken substantial 
efforts to examine, strengthen and continually adjust and make 
improvements to the elections system. Evidence of our successes 
can be found by looking at Ohio's March primary election, where 
we had a 46 percent turnout and over 500,000 absentee voters, 
despite experiencing severe weather problems and other 
emergencies.
    Chair Lofgren, I would like to offer into the record the 
March 2008 Ohio primary election report, which fully details 
the significant advancements Ohio has made in its elections 
system since Secretary Brunner came into office.\1\
---------------------------------------------------------------------------
    \1\ The information referred to, because of its voluminous size, is 
not being reprinted in this hearing but can be accessed at http://
www.sos.state.oh.us/SOS/elections/electResultsMain/
2008ElectionResults.aspx.
---------------------------------------------------------------------------
    Mr. Conyers. Without objection, so ordered.
    Mr. Farrell. Thank you.
    With November 4 approaching, there is great work to do in 
Ohio in every county, and we are getting that work done. This 
will be a historic November election, and in Ohio, where we can 
realistically anticipate a statewide turnout of 80 percent, 
Secretary Brunner has focused on three objectives: preparation, 
partnership and success.
    Secretary Brunner is focused on strengthening Ohio's voter 
operations, which is the nuts and bolts of elections 
administration. She understands that given the technological 
advances made over the last decade and the implementation of 
the Help America Vote Act of 2002, also known as HAVA, getting 
voter operations right is crucial. She has made great strides 
in this respect.
    For example, to equitably apply Ohio's elections laws to 
all voters, Secretary Brunner implemented an aggressive 
statewide poll worker training program, which includes an 
interactive, online poll worker training component. She created 
and made available a quick reference guide for all poll workers 
to use on Election Day. Secretary Brunner also issued a 
directive which provides minimum standards for poll worker 
training for all counties.
    In addition, Secretary Brunner made compliance with the 
Americans with Disabilities Act of 1990 a priority for all 
Ohioans. While the Act has been law for 28 years, Secretary 
Brunner was the first chief elections officer of the State of 
Ohio to provide the 88 county boards of elections with an easy-
to-use checklist that permits local boards to confirm their 
compliance. We thank Congress for providing ADA grant dollars 
to Ohio and allowing us to make available $500,000 in funds to 
address ADA concerns at polling places in 2008.
    Secretary Brunner and local boards of elections are also 
preparing for any problems that may arise on or before Election 
Day. In 2004, Ohio became the unfortunate poster child for long 
lines at polls and concerns about voter disenfranchisement. 
Secretary Brunner has taken a number of steps to address long 
lines and a host of other issues that cut to the core of voter 
confidence in our elections.
    First, a key ``best practice'' focus has been backup paper 
ballots for counties using direct recording electronic voting 
machines, also known as DREs. In the March primary election, 
these backup paper ballots made the difference for polling 
places impacted by severe weather, power outages, and machine 
problems. Secretary Brunner was very supportive of Chair 
Lofgren's bill, H.R. 5803, which would have provided funding 
for states to provide backup paper ballots. Although that bill 
did not pass, in Ohio we will utilize HAVA funds to reimburse 
boards of elections for the cost of backup paper ballots equal 
to 25 percent of the turnout in that precinct in 2004 for this 
November 4 election.
    Second, we have also provided boards of elections with a 
formula, developed by the Ohio General Assembly and based on 
HAVA, for the equitable distribution of voting machines on 
Election Day. This will help us find problems with distribution 
plans ahead of time and assure a scientific, facts-based 
approach to allocating voting machines for Ohioans.
    Secretary Brunner's preparation efforts also include making 
sure that voting is secure. This spring, our office brought 
together a bipartisan working group to craft best practices for 
election security. From the board of elections office to the 
ballot box and back again, we have created a suite of 
directives that provide ``best-in-class'' security for Ohio's 
voting systems.
    Those directives include security at the polling place and 
board of elections offices; minimum storage; security access 
and inventory control requirements for voting systems equipment 
at boards of elections; voting machine delivery requirements; 
chain of custody for ballots; and security for voting equipment 
supplies.
    Secretary Brunner also required boards of elections to end 
the practice of so-called ``sleepovers'' for voting machines in 
Ohio, and we are now phasing in secure machine transport for 
every county in Ohio.
    Between now and November 4, we in Ohio will all be focused 
on preparing for success. We are confident that state and local 
election officials can address any new set of problems that may 
arise because we have established a partnership that works to 
get things done.
    Thank you.
    [The prepared statement of Mr. Farrell follows:]
                 Prepared Statement of David M. Farrell

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Conyers. Thank you very much.
    Mr. Rokey Suleman, recently appointed to be the Fairfax 
County Registrar----
    Mr. Suleman. Thank you, Mr. Chair----
    Mr. Conyers [continuing]. In Virginia--I have got a lot 
more to tell about you.
    Mr. Suleman. Okay.
    Mr. Conyers [continuing]. Prior to your appointment as 
deputy director of the board of elections in Trumbell County, 
Ohio. And while there, Mr. Suleman took part in the Everest 
Voting System Review, which is an assessment of the security of 
Ohio's voting systems, and led the transition from punch cards 
to optical scan and direct record electronic combination 
systems in Trumbell County.
    We are glad to have you here this morning.

   TESTIMONY OF ROKEY W. SULEMAN, GENERAL REGISTRAR, FAIRFAX 
                   COUNTY OFFICE OF ELECTIONS

    Mr. Suleman. Thank you, Mr. Chair, and distinguished 
Members of the Committee.
    My name is Rokey Suleman, II. I am the general registrar of 
the Fairfax County Office of Elections in Fairfax, Virginia. I 
am pleased to be here this morning to discuss election 
preparation for the 2008 general election at the local level.
    The 2008 general election is not a single national event. 
Rather, it is the simultaneous occurrence of thousands of 
smaller, local events. I am here to discuss the preparations of 
one of those local events.
    Fairfax County is the largest election jurisdiction in the 
Commonwealth of Virginia. We serve one in seven of all of the 
registered voters in the Commonwealth.
    Preparations for an election like this do not happen 
overnight. Fairfax County has been planning for the 2008 
general election for several years. As a matter of fact, we are 
already making plans toward the governor's race in 2009, 
redistricting in 2011, and the 2012 presidential election.
    Part of the difficulty for preparing for an election such 
as this is the increase in new voter registrations. Our office 
has processed nearly 69,000 registration applications since our 
February presidential primary. We have registered nearly 41,000 
new voters and updated or transferred into our county nearly 
28,000 registrations.
    The office has also transferred over 19,000 voters to other 
jurisdictions in the state and removed 2,500 deceased voters 
from the rolls. By the time of the October 6th registration 
deadline, our office will have handled nearly 20 percent of all 
of our registration cards in the period between the primary and 
general election.
    Some of this registration activity is taking place by 
college students. There has been much debate in Virginia as to 
a student's resident status when they are at a university. It 
is the opinion of this office that if the student chooses to 
list their school residence as their primary residence, they 
may do so. They are attesting to this under penalty of perjury, 
so we take the application at its face.
    If we have reason to believe that someone does not live at 
the address in which they are registered, we will make an 
inquiry.
    This election will not only see record registration, but 
record turnout for our county. In the 2004 general election, 
Fairfax County saw 467,000 out of 633,000 registered voters 
participate in the process--a 73 percent turnout. This 
November, we are expecting nearly 80 percent of our expected 
665,000 registered voters to cast a ballot.
    Increases in registration and participation strain the 
resources of our system. We are expecting long lines at the 
polls this November. Fairfax County averages 3,000 voters in a 
precinct. We are telling folks now to expect the lines. They 
will exist. We are also taking steps to process voters in an 
expedited fashion.
    Virginia passed a ban against acquiring direct-recording 
electronics, also known as DRE equipment, in 2007. Knowing that 
our county had an inadequate number of voting machines and 
weren't able to acquire more, the decision was made to add 
optical scan ballots to the polls this November.
    Fairfax County purchased optical scan equipment in July. 
Our county has ordered enough paper ballots to serve over 103 
percent of our voter population this November. Voters will be 
given a paper ballot, but may vote on DRE equipment if they so 
choose. We believe that we will be able to process voters 
faster with the optical scan equipment, thus reducing wait 
times.
    This process does not come without significant planning and 
expense. Solving the pressure of lines is not as easy as adding 
optical scan machines for jurisdictions. Everything that is 
crucial to operate an optical scan system needed to be 
purchased. Our county did not have privacy booths to fill out 
the ballots, so we purchased as many as we could, and then we 
purchased clipboards to mark ballots on if voters do not want 
to wait for a privacy booth.
    We had to purchase secrecy sleeves to hold the ballot 
before insertion in the machine, ballot boxes to hold the 
expected number of ballots, ink pens to mark the ballots, 
security seals to secure machines, boxes and locate a storage 
facility large enough to store the used and unused ballots for 
the required 22 months. We have back-up equipment and batteries 
in case of machine failure.
    Should a polling place become unavailable due to emergency 
during the day, we have equipment standing by to open up a 
secondary location within 1 hour. This implementation increased 
my budget approximately 25 percent this year.
    Another policy the county has instituted to complement the 
optical scan system is the division of poll books. Normally, 
precincts would have one to three poll books to serve voters, 
with splits dependent on the precinct's size. This November our 
precincts will have two to five poll book splits. More splits 
allow us to divide the incoming groups of voters and process 
them faster. This, coupled with the paper ballot, should help 
ease the pressure of turnout.
    Dividing the poll books also requires poll workers to man 
the tables. In 2004 we utilized 2,516 poll workers. This 
election, we are expecting to use almost 3,100--a 20 percent 
increase. Recruiting and training these volunteers takes time 
and money. We are expecting to hold over 70 training classes in 
30 days. We have to train our folks on how to use the new 
equipment, reinforce training on the older equipment, and help 
them manage the turnout. Our poll workers must learn how to be 
technicians, legal experts and customer service specialists--
all from a 3-hour class that some people may take 35 days 
before the election.
    Fairfax County is also encouraging the use of absentee 
voting this election. Although Virginia has one of the most 
restrictive absentee ballot requirements in the country, we 
expect a record amount of absentee ballots. In 2004, almost 
54,000 people voted absentee. As of this Saturday, we had over 
17,000 absentee ballot applications, and nearly 250 people 
voted on the first day of in-person absentee voting this 
Friday. We are utilizing email ballots so that our overseas 
civilian and military voters receive their ballots faster.
    Adding to the complexity of the election is the electorate 
of Fairfax County. There are numerous languages spoken here 
among our citizens. Although we do not meet the threshold under 
the Voting Rights Act requiring the availability of a minority 
language ballot, we are offering several services to our 
voters. We have native Spanish and Korean speakers on staff, as 
well as staff trained in American Sign Language. At the polls 
we offer a telephone translation service with over 100 
available languages. Each polling location will have a video 
demonstration of our new voting equipment and in precincts with 
a high concentration of Hispanic, Korean or Vietnamese voters, 
the video will be offered in both languages.
    All of this comes at an added expense to our office. Staff 
are now working 7 days a week processing registrations and 
absentee applications. Seventy-hour work weeks are not 
uncommon. As we get closer to November, these days get longer. 
Voters call to inquire about polling locations, registration 
issues, ballot problems and general information. Voters will 
even call our office to find out where to pick up a sign for a 
candidate. Second shifts are added just to process paperwork 
that accumulates during the day. Our staff now consists of our 
normal contingent of 25 full-time employees and 56 temporary-
seasonal staff, with more arriving next week.
    The long hours are necessary because we do not have the 
luxury of flexible deadlines. No matter the level of work, it 
all must be completed in time for November 4. Election 
officials are expected to be 100 percent accurate in their 
work, and mistakes have the potential to disenfranchise a 
voter. We take that responsibility very seriously. Not only 
that, but it seems that everyone now has teams of lawyers 
waiting to pounce if the smallest mistake is made. This only 
adds to the level of stress.
    I do want to take this time to thank and commend my staff. 
The workload grows and grows, yet staffing levels remain 
stagnant. Laws become more complex and require more service, 
yet local budgets feel revenue constraints. We do not have 
everything that I would like to run an election, but we will be 
successful. Staff know that time spent at home will suffer. We 
joke that our families should place our pictures on milk 
cartons. But they still have smiles on their faces. They truly 
love to serve the voters, and although we are incredibly busy, 
we are excited to see all of the participation.
    All of this effort occurs so that the voter has as little 
difficulty participating as possible. It is difficult to ask 
the entire Nation to do the same thing on the same day. It 
takes months of planning that 1 day so the voter has the 
ability to arrive at their polling location and participate in 
our most basic and most important part of a democracy.
    Thank you for the invitation to speak today.
    [The prepared statement of Mr. Suleman follows:]
                 Prepared Statement of Rokey W. Suleman

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Conyers. Thank you very much.
    The executive director of the Elections Center is Mr. Doug 
Lewis. It is a non-profit organization of election officials 
that trains, informs and advocates for the election 
administration community.
    We would love to hear what you make of all of this today, 
Mr. Lewis. Welcome.

              TESTIMONY OF DOUG LEWIS, DIRECTOR, 
           NATIONAL ASSOCIATION OF ELECTION OFFICIALS

    Mr. Lewis. Congressman, thank you.
    My name is Doug Lewis. Obviously, I am not going to get 
through eight pages of testimony in 5 minutes.
    Mr. Conyers. How about you turn on your microphone?
    Mr. Lewis [continuing]. Try to read all of it.
    Mr. Conyers. Okay. Turn on your microphone.
    Mr. Lewis. I will point to some parts of it so that 
hopefully you all will be able to see the kind of preparation 
that is going on in America for elections. There isn't an 
election official anywhere in America that wants voters to have 
a bad experience. There isn't an election official anywhere in 
America that wants voters to wait in long lines.
    And yet the fact of the matter is, we are going to be hit 
with a tsunami this time. We are going to have waves of voters 
that we have not been able to see in our working lifetime.
    I guess mine is not on or I am not speaking right into it. 
Okay.
    I come from Texas. We just had a big hurricane blow through 
there. This is one election year where we don't like Ike. And 
when you look at what happened to Galveston, who did all kinds 
of preparations for a big hurricane, expecting 12-foot waves 
and they got, you know, 15 to 25-foot waves--they were 
overwhelmed. We may very well be overwhelmed in this election. 
We are going to try to do the best we can.
    We didn't start planning for this election in 2008; we 
started in 2001, and 2002, and 2004, 2006--with all of the 
things that we saw happened in each one of those. We have been 
working on what is--strange as it may seem--is planning for 
failure. Where are the failure points that can happen in an 
election? How do we make this a good experience? How do we make 
this work for voters?
    Well, when you look at that--this is a pretty complex 
system, folks. You know, we are going to have, according to--I 
just looked up what the Census Bureau says are voting-
population--that is 227 million people of voting-age 
population. In 2004, we had 178 million of those as registered 
voters. We are expecting a huge increase over that for this 
time.
    In 2004, there were 122 million voters. We were swamped in 
2004. We are going to have more voters this time, we think, by 
a significant number. And so we are looking at that.
    You have got roughly 7,500 election jurisdictions in 
America scattered over counties and townships, depending on how 
they run elections, in America. There are roughly 800,000 
voting devices. There is somewhat less than 200,000 polling 
places, 1.4 million poll workers, and roughly 19,000 people who 
at least derive part of their income from running elections for 
their jurisdiction.
    When you look at that, the numbers are just staggering in 
terms of what we can do. If you look at the average number of 
voters having to be handled by the full-time employees like 
Rokey and even Secretary Cortes, you are looking at maybe a 
ratio of one employee to every 6,200 voters. There is no 
business that operates like that in America. There is no 
enterprise that operates like that in America.
    On Election Day, we are going to put the equivalent of 
several divisions of several armies in the field with two to 
three hours of training who are supposed to make things come 
off flawlessly. It can't happen. It will sometimes not be 
perfect. But perfect is not what we are after here. What we are 
after is an honest, fair, and accurate election.
    And we need to remember that--that when all is said and 
done, the important part is, is the result an accurate 
reflection of the public will? And we think that is where if 
folks will focus on what the end objective is and not on the 
hiccups that may occur, then we will end up with a good 
election in America.
    You know, I have to tell you, I am concerned about this. 
When you look at the fact that we have, because the economy is 
doing a dipsy-doodle--we have county commissions and we have 
local budget authorities all over America who are cutting 
budgets in elections offices when we are expecting the largest 
election in our lifetime.
    So elections officials are having to do more with less. And 
as I think Rokey pointed out, my goodness--his jurisdiction 
alone has grown enormously over the last 20 years, and yet I am 
going to guess that his staffing level is probably the same or 
less than it was 20 years ago.
    This is what we are faced with when you look at this 
election. We want it to be a good experience. We want it to be 
a good election. But I am going to say to all of you, we are 
also at the point where we have had so many allegations made 
about the process, that I am not sure we are not doing 
permanent damage to the process. We have to get to the point 
where we understand the process is more important than 
partisanship. And we have to remember that. Because we lose 
partisanship if we lose the process.
    I would say to you that we are very concerned that we do 
this election, that we do it well, that we do it well for 
voters, that we make it a good experience for the voters, that 
voters are happy--and we have some suggestions for that.
    In terms of what we think can happen this time, we 
certainly would encourage voters to be at the point of where 
they check their official registration. Make sure you are on 
the voter rolls. Make sure you have done what you need to do. 
Make sure you know where your polling place is. The truth of 
the matter is, is on Election Day, we are not going to be able 
to answer all those calls that come in that want to know where 
their polling place is. Voters need to know beforehand where 
their polling place is, and this will help this be a good, and 
smooth, and wonderful election.
    Thank you, sir.
    [The prepared statement of Mr. Lewis follows:]
                    Prepared Statement of Doug Lewis

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Conyers. Thank you for your sobering comments, Mr. 
Lewis.
    Let's begin our discussion with Chairwoman Zoe Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And I have just a few questions. First, Mr. Farrell, I was 
pleased to hear of the efforts that Secretary Brunner has made 
to prepare for this huge election in Ohio, and also let her 
know how much I appreciated her support of the backup paper 
ballot bill that failed, really, on the House floor. Which I 
thought was a shame.
    But certainly jurisdictions have the legal ability to spend 
HAVA money to get additional paper ballots in case of an 
emergency. And the emergency could be anything from machine 
failure to you got a huge line--that is really disenfranchise 
people.
    Are you--and I will ask the same of Pennsylvania and 
Fairfax County--are your jurisdictions prepared with the backup 
paper ballot if you are overwhelmed just with the sheer numbers 
of people showing up, do you think?
    Mr. Farrell. Yes, we believe we are. We have issued 
instructions for polling place layouts which hopefully will 
guide boards on how to lay out the polling place so that there 
is clearly two options for voters. So that in a scenario where 
it just happens to be a huge turnout and folks normally would 
just have the choice of one line for a touch-screen voting 
machine, they now clearly have the option of voting a paper 
ballot.
    Ms. Lofgren. Unless if they want to wait in line, they can 
do that, but the choice is theirs.
    Mr. Farrell. Exactly.
    In addition to that, I had mentioned poll worker training 
materials, which incorporates this. Most elections are only as 
good as the people on the front lines. So we have invested a 
lot of time and technology in preparing them for this 
particular type of layout in polling places.
    And we have given, to local county boards of election, some 
flexibility on how they lay that out. As I mentioned on the 
primary, just through fate we had power outages, flooding, ice 
storms, and some counties in the primary found that paper 
ballots did save the day in extreme circumstances.
    Well, heading into 80 percent turnout for this fall, it 
could be that even without a power outage, these could be an 
extreme circumstance when it comes to long lines.
    Ms. Lofgren. What about Pennsylvania?
    Mr. Cortes. Madame Chair, I am glad to report that 
Pennsylvania has taken similar steps to prepare our voters.
    We find that there are two necessary components to a good 
election experience. First, you have to have a well informed 
and prepared voter. As Mr. Lewis noted, you have to confirm 
that you are registered. Where is your polling place, how do I 
get there? If I am a first-time voter, is there an ID 
requirement? Know the rights of provisional ballots and such.
    The second component is to make sure that the poll workers 
are properly prepared. We find that in Pennsylvania many times 
our issues related to long lines are not related to 
deficiencies with the equipment. They may have to do with an 
inefficient way of registering voters or checking them in at 
the polls. We are encouraging, and we are glad to say that most 
of our counties are going to be, splitting their poll books to 
have a line for, let's say, voters with the last name A through 
L, and then another one M through Z.
    Pennsylvania law, however, does provide that in order for a 
jurisdiction, a polling place, with direct reporting electronic 
machines to be able to hand out an emergency paper backup 
ballots, you have to have--all systems that are present in that 
jurisdiction to be down or inoperable. Which means that the 
fact that you have a long line does not give us the legal 
authority to just simply hand out ballots.
    But again, measures are being taken in terms of 
preparation, in terms of proper training, to minimize the 
chances that we will have long lines. We are also trying to 
manage the expectations on the part of the voters, reminding 
voters that you are usually more likely to find long lines when 
we open the polling place at 7 a.m., from 7 say until 9, and 
then when we are closing the polls, between 5 and 8.
    And to the extent voters are able to modify their 
calendars, we encourage them to do so.
    Ms. Lofgren. All right.
    And Fairfax County, I think we are going to have just an 
enormous turnout in Fairfax County, from what I am--you are on 
the field, but--is 103 percent going to be enough?
    Mr. Suleman. Yes, we do believe that 103 percent of the 
paper ballots will certainly be enough. We figured that 103 
percent on a number that was 4 percent larger than the actual 
number of registered voters that we have.
    Ms. Lofgren. What about distribution? Because in the 
primary in some states--for example, my county in California--
we had such a huge turnout in the northern part of the county 
that I live in that they ran out of ballots. And they had to 
get ballots in other places, it was chaotic.
    The county did their very best, but in retrospect, talking 
to the county officials, they wished that they had spent a 
little bit--I mean, I was in local government for 14 years. It 
is hard financially, but it would have been cheaper for them to 
actually proactively provide more ballots than what they ended 
up spending on Election Day, because they were just caught 
short.
    And so moving around within the county, you know, I think 
there is a level of excitement in your county about this 
election that is really stunning.
    Mr. Suleman. There certainly is. And again, we based our 
103 percent on a number that was higher than the actual number 
of registered voters that we have. I recommend that every 
jurisdiction purchase over 100 percent of ballots, paper 
ballots, for their----
    Ms. Lofgren. For that----
    Mr. Suleman [continuing]. For that reason.
    Local governments were under serious budget constraints.
    Ms. Lofgren. I know that.
    Mr. Suleman. And it is odd to--when you are deciding how to 
purchase paper ballots--well, if you only have 70 percent 
turnout, why did you buy 100 percent? You wasted that money. If 
you only had 60 percent turnout, why did you buy 100 percent?
    Ms. Lofgren. I understand.
    Mr. Suleman. You wasted that money.
    Ms. Lofgren. Been there, done that. But--you can use HAVA 
money for this.
    Mr. Suleman. Yes, yes. And, we know, we are going to look 
into that. But with the local government, we just figure that, 
it is my opinion that this is one point where you can blame 
waste on the taxpayer. Because we have to prepare for every 
voter to show up. And if a voter would call us and say, I am 
not going to vote on Tuesday, don't buy my ballot, we would be 
happy to do that. But we have to assume that they are going to 
show up.
    So we have enough ballots if somebody makes a mistake on 
their ballot, they can get a second ballot. And we believe we 
are going to be well prepared for this record turnout.
    Ms. Lofgren. Could I just ask one final question. We are 
going to have a hearing on this tomorrow in the House 
Administration Committee, but we have all read about problems 
with voter registration--I think it was Virginia Tech--but I 
mean, students are reading this, and if you come from a state 
where you can't do, by right, absentee voting, the only way you 
are going to be able to vote on Election Day is if you register 
where you are at college.
    What proactive steps are being taken by the registrars in 
Virginia to correct the misinformation that students whose 
residence is at their college are going to lose their student 
loans if they register and vote?
    Mr. Suleman. I believe the State Board of Elections has put 
out some press releases to all the universities stating that 
you are allowed to register from your dorm. If that is your 
residence, that is your domicile in the state of Virginia, then 
you are allowed to register from that point.
    There was some misinformation being bandied about across 
the state by some registrars, who I believe were just being 
well-meaning and trying to be----
    Ms. Lofgren. I am not suggesting there was a----
    Mr. Suleman. No.
    Ms. Lofgren [continuing]. There was a wrong intention, 
but----
    Ms. Lofgren [continuing]. Wrong information----
    Mr. Suleman. There was misinformation. I believe they were 
just trying to be good moms and dads when they are looking out 
for the students. And I believe the State Board has taken the 
lead on that and notified all the colleges so as to rectify 
that problem.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Mr. Conyers. I see we have been joined by Vern Ehlers from 
Grand Rapids, MI, the Ranking Member on the House 
Administration Committee.
    Welcome, sir.
    I turn now to Trent Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Chairman, I know that in election seasons, sometimes 
there are partisan considerations and comments on both sides, 
and I certainly don't deny that I am a partisan Republican. But 
I always want to make sure that everything I say is absolutely 
accurate. And just to respond to one of the questions earlier 
related to ACORN, I just wanted to briefly say that in 2008 
alone, ACORN's activities have prompted calls for investigation 
in Louisiana, Connecticut, New Mexico, Texas, Nevada and North 
Carolina.
    Now, in my opening testimony, I cited public newspaper 
reports recounting specific ACORN-related criminal activity in 
Washington, Missouri, Ohio, Pennsylvania, Wisconsin and 
Michigan. Now, those reports concern the last few years alone. 
The number of 12 states is cited in the Pittsburgh Tribune 
Review, specifically adding Colorado to that list. And other 
examples are cited in John Fund's article in the Wall Street 
Journal and his new book--it is called ``Stealing Elections,'' 
and it certainly will be discussed in the second panel.
    As I say in my opening statement, I simply focused on the 
public reports in the last--in six states as they occurred in 
the last few years. But I would be very happy to see a hearing 
exploring ACORN activities over the last 10 or 20 years across 
the Nation. And if that hearing suggests that I have overstated 
anything, I would be more than happy to apologize publicly to 
the Committee and to Ms. Lofgren. But I am afraid that it would 
only show that I understated the situation, far more than 
overstated it.
    So with that said, my question is first I guess to Mr. 
Lewis, and I will give the others an opportunity.
    In Seattle, both the prosecutors indicted seven workers for 
ACORN that in the last year had registered more than 540,000 
low income and minority voters nationwide and employed more 
than 4,000 get-out-the-vote workers. The ACORN defendants stand 
accused of submitting phony forms in what Secretary of State 
Sam Reed says is, ``the worst case of voter registration fraud 
in the history of the state.
    Given that the state doesn't require the showing of any 
identification before voting, it is entirely possible people 
could have illegally voted using those names. Local officials 
invalidated 1,762 ACORN registrations. Felony charges were 
filed against seven of its workers, some who already have 
criminal records. And prosecutors say ACORN's oversight of its 
workers was virtually non-existent. To avoid prosecution, ACORN 
agrees to pay $25,000 of restitution.
    Mr. Lewis, I think that you have at least expressed a tone 
of wanting to make sure that our elections are honest, and I 
believe that. Do these reports concern you at all, however?
    Mr. Lewis. I don't know specifics about the one that you 
are talking about. And certainly I know that Sam Reed is one of 
those who is not prone to overstatement.
    But let me say to you--we are concerned from an 
administrative standpoint about third-party registrations 
altogether. We like them. We want them. They do a good job in 
many cases of bringing people into the process, and that is 
always healthy for democracy.
    But this unfettered, unbounded, unregulated use of third-
party registrations, the point of where they sit on those 
registrations right until the end and try to turn them all in 
at the very last minute--it just screws up the system. It 
disenfranchises voters. It is one of those things that just is 
frustrating to us as elections officials.
    That voter that was solicited by a third-party registration 
outfit may have signed up with them 6 weeks ago, 8 weeks ago, 
12 weeks ago, and yet that card hadn't been turned in to the 
election official. When these kinds of occurrences go on, we 
hope that they will be turned in within 3 days. If they are 
turned in within 3 days of contacting the voter, then we have a 
chance to get them on the roll. And if there is more 
information that is needed, to be able to get that information 
back in time so they vote a legitimate ballot, they vote a real 
ballot, not a provisional ballot.
    And so those are our real concerns----
    Mr. Franks. Let me follow up with one last question. Mr. 
Obama has sued on behalf of ACORN. ACORN later invited Mr. 
Obama to help train its staff. Mr. Obama would also sit on the 
board of the Woods Fund for Chicago, which gives funds to 
ACORN. And its registration efforts, of course, have been 
scandal-prone.
    In St. Louis, Missouri, officials found that in 2006 over 
1,000 addresses listed on its registrations didn't even exist. 
Later, Federal authorities indicted eight of the group's local 
workers, and one, of course, has already pleaded guilty. That 
has got to concern you too, as well--correct?
    Mr. Lewis. We are always concerned, as elections 
administrators, that elections not only have real integrity, 
but also have the appearance of integrity. Because for voters, 
when they begin to perceive that the process is too loose or 
that it doesn't adequately protect the system altogether, then 
they lose faith in it, too.
    But the truth of the matter is, how do we, as elections 
officials--other than with our limited resources and the 
limited amount of time that is allowed to us--how do we find 
out about most of these? Well, we only find out about them, 
quite frankly, if they occur in the normal course of business 
and we have the resources to be able to do that.
    Mr. Franks. Thank you.
    And thank you, Mr. Chairman.
    Mr. Conyers. Thank you very much. Now I would like to 
recognize Mr. Charles Gonzalez of Texas.
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    Let me pose--well first of all, I think the most obvious 
observation from this side--it is refreshing to hear someone on 
the other side of the aisle calling for more oversight and 
regulation. May be too late and it may be the wrong subject, 
but regardless.
    I am going to ask the same question of the individuals that 
have testified, and that is, so that we walk away with here 
something that is relevant to the hearing today: what is the 
number one challenge that you identify as being the greatest to 
you in conducting a successful election, knowing the increased 
numbers on November 4 and prior to?
    And what are you asking us to do to assist you?
    And I will start off with Secretary Cortes.
    Mr. Cortes. Thank you, Congressman.
    The biggest challenge that the states are going to face is 
the large number of voters who are registering and will 
participate. In terms of the registration, as it was noted, it 
is processing those applications in a timely fashion. I know 
that in Pennsylvania, many of my colleagues have taken the 
steps necessary to communicate with any group that is doing 
third-party voter registration to ensure those applications are 
turned into the voter registration offices as quickly as 
possible.
    But the bottom line is preparation, preparation on the part 
of that voter. One of the main messages that I am taking out to 
all Pennsylvanians is: if you are registered, no matter which 
way you do so--third party, online, in person--you should be 
receiving within 2 weeks, 14 days of that registration, a 
confirmation from your county that says you are registered, and 
where you vote. Preparation on the part of the voter alleviates 
many of the issues that we face on Election Day.
    So I would like to take that message of preparation. How 
can you help us? Financial resources are always needed. It was 
noted here already, very eloquently, by the registrar from 
Virginia that we are in a situation where we don't have enough 
financial resources. And to that you can add human resources, 
which oftentimes will require money to bring in.
    So you can help us with resources. You can also help us by 
understanding, as Mr. Lewis noted, that it is a complex 
process, and that we have gone through a number of reforms 
since 2000, which I support and are very needed. Give us time 
to work through those reforms before we enact even more on top 
of those, because that creates frustration on the part of 
election administrators.
    Mr. Gonzalez. Mr. Farrell?
    Mr. Farrell. Well, this won't be the first time you have 
heard this, but our number one challenge is funding. And it 
specifically relates to the machines themselves. The new 
machines do wear out more quickly than the old-style levers 
did. In Ohio we conducted a study and found there were some 
serious deficiencies in the voting machines. But with no 
funding, there was no way to replace those, which is why we 
implemented a plethora of security practices and procedures and 
chain of custody and other items to try and offset that.
    But even that required local boards to, unfortunately, 
spend more of their funds to make sure these machines--that 
they had enough, that they also were operating properly.
    And the other challenge is training. And as you heard, on 
the front lines are these poll workers with the ID requirements 
and trying to make sure that everything is followed properly. 
And training costs money, as well. So funding would be Ohio's 
number one priority.
    Mr. Gonzalez. Thank you.
    Mr. Suleman?
    Mr. Suleman. To sound like a broken record, it is funding. 
I have got a litany of issues that I could correct in my office 
with a much better funding mechanism. We were very proactive 
with our voters this year and sent each voter a new voter 
registration card to let them know their polling location and 
to give them an updated voter ID to bring to the polls so that 
would ease along the process. And that alone cost $300,000 that 
we haven't been able to replace in our budget.
    I could have better poll worker training. In Ohio, I had 
one of the first counties that went online poll worker 
training. And I don't have the resources to do that in 
Virginia. I am not an educator, but I am charged with training 
my poll workers. I don't know how well they are learning. If I 
had the software package, I could track their learning, see 
where their problems are, and change my policies and 
procedures.
    Funding to purchase more privacy booths to allow more 
voters to vote paper ballots will move the lines along. Funding 
solves the majority of our problems.
    Mr. Gonzalez. And Mr. Lewis?
    Mr. Lewis. At the risk of earning the enmity of my 
colleagues here, funding is only a part of this. We are at the 
point where practices and procedures and training issues are 
indeed key to this process. But we keep changing the process, 
faster than we can adapt to it.
    And we have had, since the Help America Vote Act, states 
and locales and administrative decisions, legislative decisions 
by state legislatures, that we keep changing and changing and 
changing. You are not going to have good elections as long as 
we continue to force the pace of change at such a rapid pace 
that we can never get to the point that it is stable.
    And so it seems to me that we have to start taking an 
attitude that we want a certain kind of end result in the 
process, without trying to Band-Aid each of the pieces. We need 
to look at, how do we do this as an overall process to make 
sure it truly works for voters?
    That is indeed probably going to cost more money in some 
respects. But our concern right now is that if we don't stop 
the pace of change, if we don't stop this constant assumption 
that we can manipulate each and every part--of all of the 
processes, we are going to be in for real trouble. Because this 
system is close enough now to where we have overwhelmed it. We 
are at a point now where in my testimony I pointed--we have had 
about half the people in this business retire, because they 
have gone through all of this accelerated pace of change.
    We need time. We need time and stability and then, 
obviously, the answer is we also need money. But local 
jurisdictions--you know, I don't know what the right answer is 
here. But if you are a county commissioner and you have got too 
many competing goods for available dollars, what do you do?
    And yet at the same time, we are on the receiving end of 
that as elections administrators. We have got more and more 
voters coming in every election cycle, and yet we are asked to 
do with less and less. And this is a recipe for disaster long-
term.
    Mr. Gonzalez. Thank you very much.
    And each of you, thank you for your service.
    Yield back, Mr. Chairman. Thank you.
    Mr. Conyers. Thank you.
    Mr. Kevin McCarthy, Ranking on the Elections Subcommittee?
    Mr. McCarthy. Thank you, Mr. Chairman.
    I thank all of you for your service and work you are doing. 
You have to do a lot of preparation, and I don't know if it is 
coincidence or on-purpose, but we have Pennsylvania, Ohio, 
Virginia--you are all battleground states. So you have got a 
lot of work before you.
    I have a few questions. Mr. Cortes, if I could start with 
you. You are not only secretary of state of Pennsylvania, you 
are also president of the National Association of Secretary of 
States, is that correct?
    And you have 39 states in your association, is that----
    Mr. Cortes. We have--all jurisdictions are within our 
membership. Secretaries of state not only oversee elections, 
but we do corporate filings, we do professional licensures, 
records management--so our association comprises all 50 states, 
the District of Columbia, Puerto Rico, the Virgin Islands, 
American Samoa and Guam. So everybody is covered.
    Mr. McCarthy. So you wear a big hat. You have got to not 
only look at your state, but everybody else's. I will tell you, 
in my home state, I have found that every election, things have 
kind of changed. That people want to have a greater ability to 
vote, make it easier to vote. One of our colleagues from 
California, Mrs. Davis and I, had worked on absentee balloting, 
which has continued to grow in California. You will find in 
some districts, more than half the people vote before Election 
Day.
    Now, part of that work and what we have done in working on 
legislation, it is also the greatest ability to have fraud. 
Because you are outside and moving through, and then we have 
heard from our colleagues before here as well, the fraud in 
voter registration. You have got to be able to prepare, and 
that takes time, just like preparing for an election. If 
someone sends in the application, you have got to do the due 
diligence to make sure that person's lived there, not 7 years 
old, as we showed that someone before.
    What type of work do you do in Pennsylvania for preparation 
if someone turns in an application or first does a voter 
registration? Do you check that before someone gets an 
application by mail to vote? Or can they get it on the same 
day?
    Mr. Cortes. In Pennsylvania you must register to vote 30 
days prior to Election Day, so there is a requirement of 
registration. Forgive me, but I am going to ask you to rephrase 
the question. I am trying to follow it----
    Mr. McCarthy. If I walk in and I register to vote. So I 
register to vote with you--could I get an application to vote 
by mail on that same day? Or do you do any checks and balances 
to make sure what I say on my voter registration, that I am a 
citizen, where I say my age--is there any checks and balances 
on there that----
    Mr. Cortes. There are, Congressman. Yes, you can submit a 
request for both, but the voter registration process is handled 
first. In other words, you don't have to put in an application 
and come back a week later for an absentee ballot--you can 
submit them both at the same time. However, the process whereby 
we verify that there is no duplicate in the registration, that 
we can verify that you are the person you say you are, is a 
check that is done first.
    And we have the statewide voter registration database that 
we are mandated to have by HAVA to thank for the ability to 
have greater transparency and duplicate checks, the checks and 
balances that I believe you are alluding to. So a jurisdiction 
will receive an application, will go through their due 
diligence, check everything, including verification and check 
up with either Pennsylvania driver's license number, comparing 
the information on that application to our Department of Motor 
Vehicles registration records, or the last four digits of a 
person with the Social Security Administration.
    So those check-ups and verification that the person is not 
registered elsewhere happen first. Once that is verified, then 
the application for absentee ballot can be processed. In 
Pennsylvania we have, however, what is known as excused 
absentee voting.
    Mr. McCarthy. He has to have a rationale----
    Mr. Cortes. Only 14 categories exist for which you can 
qualify for an absentee ballot. But the process is very 
transparent----
    Mr. McCarthy. Well, if I can follow up--I appreciate the 
work that you have done there. Now, the concern I have, and one 
thing that we looked at voter fraud and others--but you bring 
the word ``transparency.'' On Election Day, you allow people in 
from the outside to watch, right? Counting the votes and 
others?
    Mr. Cortes. Yes.
    Mr. McCarthy. Well, I am concerned about--I listened to Mr. 
Farrell, and he talked about, was it preparation, partnership, 
and one other--success. Secretary of State Jennifer Brunner of 
Ohio, her new advisory that prohibits observers during the 35-
day period where a person votes in person--she doesn't allow 
people to observe during that time. So if you are in Ohio, you 
can't do what--you can do something that you can't do in 
Pennsylvania. I could walk in, I could register to vote, and I 
could vote in person the exact same day and no transparency 
where someone could actually view it from the outside, because 
of this new advisory.
    And I am just asking, in all the hats that you wear, what 
was your opinion on having that activity?
    Mr. Cortes. Well, I guess my answer to that, Congressman, 
will be the one that applies to the sometimes-heard suggestion 
that one size fits all for our country. We recognize that we 
have a rich history of diversity within our Nation. I am not in 
a position, nor will I comment, on the decisions of my 
colleagues in Ohio or other state, for that matter. I believe 
the decisions made by that state chief election official, I 
would like to think, is being done with due diligence and with 
the application of the law.
    Many times what creates a difference in the way we approach 
and we handle elections are constraints that are in law--either 
Federal, most of the time state--that the chief election 
officials have to abide by. People have to frequently defend 
even the Help America Vote Act and the merits of that act, and 
we are the implementers, not the body that created the law.
    But I will say that the processes that I have observed have 
within them inherent checks and balances that take into account 
those potentialities. What I will say in terms of voter fraud--
most of our states, by the way, have established 1-800 toll-
free hotlines that people can call in to report fraud. When we 
have instances of fraud, we go to those issues and attack them 
vigorously. In fact, the states of Alabama and West Virginia 
have created election voter fraud task forces to address that.
    So I will say, respectfully, that I believe that the states 
are operating within their legal constraints and acting in the 
way that they believe is best fit for their electorate.
    Mr. McCarthy. I appreciate the time you have given me. And 
one thing I will say is, we have contested elections here. And 
we sit on the panel--there was just three of us that did it. 
Once someone casts that ballot, and that ballot is then 
uncounted, you have a hard time going back through finding out 
which one it is.
    I appreciate the due diligence that you do and the 
transparency that you do. And I do believe maybe one size 
doesn't fit all. But I also believe that having a checks and 
balance across the Nation makes a much safer election and a 
more honest election and a greater partnership--as well.
    I yield back.
    Mr. Conyers. Thanks, Mr. McCarthy.
    The Chair is pleased to recognize Mrs. Susan Davis of 
California on the Elections Subcommittee
    Mrs. Davis of California. Thank you, Mr. Chairman, and 
thank you all for being here.
    I am going to follow up on a topic of importance to me, 
which is absentee voting. And I appreciate the fact that my 
colleague has started some of that discussion. One of the 
reasons that I think it is so important is that so many people 
in this country are voting absentee today. And in fact, there 
are areas where it is projected that about a third of the 
country might vote by mail in this election.
    So we need to certainly be very aware of what is happening. 
And as we know, states vary tremendously in the way they 
approach this issue.
    And I wanted to ask you, Mr. Suleman: Virginia's laws on 
absentee voting are quite intriguing, really. And there are 
many excuses that happen to be valid, but it looks like the 
forms are fairly complex for folks, and certainly there is some 
invasion of privacy, as well.
    I have got that form here. If you are sick or you have a 
disability, you have to specify the nature of your illness. If 
you work, you need to indicate your hours and the name and 
address of your employer. If you have a religious obligation, 
you need to describe it. If you are taking care of an ailing 
relative, you need to name that person and describe their 
illness. If you are on vacation, you need to say where you are 
going. And you also need to tell the state if you are pregnant.
    Now, could you tell me why all that is necessary? What do 
you do with that information? How much time does it take to 
verify that? Does it cost more to check these excuses than it 
would to go to no excuses voting like California or Ohio? Why 
is all this necessary?
    Mr. Suleman. I think that is a question for the Virginia 
legislature. Quite honestly, I don't believe that it is 
necessary. My personal opinion is that it is not necessary. I 
have come to Virginia from a state that instituted no-fault 
absentee voting--Ohio--and I believe no-fault absentee voting 
works.
    The forms are very restrictive. I am denying forms every 
day for voters that are not filling out the forms properly. I 
don't like doing it, but I don't have the option to not do 
that. I don't have the ability----
    Mrs. Davis of California. How much--what does it cost you? 
What about the personnel required?
    Mr. Suleman. Oh--personnel. My MT department right now is 
the largest department that I have, which I probably have about 
25 people. And it is probably a quarter of my personnel budget 
at this time. I can't give you an exact number of expense, but 
the cost of denying this form, sending the form back to a 
voter, saying that you missed this part of the form or this 
wasn't checked properly or you didn't list your employer on the 
form when you are working--sending that back to the voter and 
having it sent back in--the cost in time and postage and money 
is astronomical.
    Mrs. Davis of California. Hmmm. Thank you.
    Mr. Farrell, you went to no-excuse voting. And you had some 
forms that were pretty complex as well, but you have changed 
that. How has that affected your ability to do this part of 
your job?
    Mr. Farrell. Well, it is interesting. Even with Ohio's 
fairly recent no-fault absentee application process--meaning 
that you really don't have to have a specific reason--there 
have still been some challenges. Because, under Ohio law, 
certain information must be provided. What is interesting is 
Ohio, for absentee ballot applications, does not actually 
require a form. A citizen--or a voter, I should say--can even 
hand-write the request as long as it has specific components.
    So boards of elections in Ohio face similar challenges, but 
are very used to someone who requests an absentee ballot maybe 
not having all the required information. They have a process or 
procedure where they notify the voter of what is missing and 
have them turn that in.
    Mrs. Davis of California. So there is a lot of extra time 
involved in that.
    Mr. Farrell. There is a lot of extra time. And 
unfortunately some criticism when boards try to adhere to that 
law and, you know, have to go through that effort.
    Mrs. Davis of California. Thank you.
    I just want to turn to Mr. Cortes quickly, because 
Pennsylvania's form is not as invasive as it is in Virginia. 
But nevertheless, you have to state your illness and doctor's 
excuses--what has that done, and how much time do you spend? 
And I think the other thing that is quite significant, Mr. 
Suleman, that you cited is that you are turning back a lot of 
those forms, not because people don't have a valid excuse, but 
because they somehow read the form incorrectly.
    How has it affected your voting?
    Mr. Cortes. In Pennsylvania, this has been the law for so 
many years that our administrators are well attuned to handling 
the applications. So I can say that we do so fairly 
expediently. The issue of the no-fault or the no-excuse 
absentee voting was covered in a commission that I chaired back 
in 2005. It was the unanimous recommendation of our body that 
we do without the excuse absentee voting. We don't see it--as 
in the case of Ohio, we don't necessarily see the value as much 
anymore.
    There is a nostalgia about voting in person, but we 
recognize that with the complexities of today's life, people 
may want to vote by absentee ballot. In Pennsylvania, you must 
check off a reason. You don't have to explain it in detail, 
just check it off. You are swearing that under oath, as an 
affidavit, and you would be subject or could be subject to 
penalties if in fact somebody is found to misrepresent that 
decision.
    But we believe that for the proper administration of 
elections, there are enough checks and balances and other 
things that we can do, and we should relax those requirements.
    Mrs. Davis of California. That you should relax them.
    Mr. Cortes. Yes.
    Mrs. Davis of California. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Conyers. Thank you, Mrs. Davis.
    The Ranking Member of House Administration, Vern Ehlers.
    Mr. Ehlers. I thank my colleague from Michigan, and thank 
you for holding this hearing.
    I will repeat the mantra which I have said numerous times 
in the House Administration Committee, what I hold dear in 
voting:
    Number one: Every legal voter should be assured of the 
right to vote and be assured that their vote will be counted 
accurately and correctly. That is number one.
    Number two: Every legal voter should be assured that their 
vote will not be diluted or negated by other individuals 
registering or voting illegally.
    And I think we have done very well in the past several 
years--in fact, quite a few years--about ensuring that legal 
voters are able to cast their votes legally and to be assured 
that it is counted legally. We know of the few instances 
throughout the Nation where this has not always happened. But 
by and large I think we do pretty well there.
    I think we are not doing as well on the other part, and 
that is, stopping the fraud of people who are voting 
illegally--in other words, negating or diluting the votes of 
people voting legally.
    And there are lots of ways that this can happen. And part 
of my cynicism comes from having served on contested case 
hearings in various parts of the country where we observed 
behavior that was certainly not appropriate.
    And some of it is not at all the fault of the voter. The 
one that disturbed me the most was an organization that was 
telling undocumented aliens that of course they had the right. 
And helping them become registered, and telling them how to 
vote.
    Now, first of all, this is not only illegal, but it is of 
huge danger to the undocumented aliens, because if discovered 
they are automatically deported. And I think that that is one 
of the most egregious examples.
    I am very bothered by the behavior of ACORN. Mr. Lewis, you 
gave the example of their dumping everything on you. That may 
not be particularly egregious, but it certainly makes your work 
more difficult. And the question is, why would it be done if 
you are not trying to confuse the process or overload your 
staff?
    There are other examples of ACORN; many of us have heard 
those. And why do these organizations exist, why are they 
trying to break the law? And I am delighted to have an 
organization that is trying to register more voters. That is 
what we need, that is what we should have. But why do they feel 
the necessity to resort to irresponsible behavior or perhaps 
illegal behavior? And I am just wondering if any of you can 
enlighten me on that. And are there other organizations that 
you see attempting to do the same thing?
    Let's go down the line. Mr. Cortes?
    Mr. Cortes. I would say that all state and local election 
officials share the same views in terms of what you have 
expressed. Every legal vote should be counted; no legal vote 
should be diluted. And nobody that I know condones fraudulent 
activity in any of its manifestations.
    Based on personal experience and on what I read and my 
discussions with the Department of Justice and district 
attorneys and those that prosecute fraud, most groups that 
engage in third-party voter registration do so for all the 
right reasons. They are trying to franchise and make sure that 
every voice is heard.
    There is always a bad apple, so to speak, in every group. 
And I can tell you that for one, and all my colleagues with me, 
are always eager to learn of those instances. If information 
does surface that you have individuals who are acting 
unbecoming, we want to know about that. And we would work with 
the proper law enforcement authorities to see that the law is 
followed.
    But my opinion is that by and large, groups that engage in 
voter registration do so with all good intentions, and that 
sometimes part of the problem is inadequate training of those 
individuals who may not even be well suited to assist a 
potential registered voter to complete the forms. And that 
creates delays, inconveniences and burdens for the election 
administrators.
    So we share your views as far as that, and I cannot comment 
more thoroughly with regards to ACORN. Some of this information 
that is coming to me is news today.
    Mr. Ehlers. Yes. Well, what bothers me is they seem to be 
deliberately trying to subvert the process, and there is no 
need for it. If they want to register voters, register them 
properly and honorably.
    Mr. Farrell, any comments?
    Mr. Farrell. Well, prior to working at the Secretary of 
State's office, I was chairman of the Clark County board of 
elections in Springfield, Ohio. And interestingly enough, we 
had a fraud case. It was not with ACORN. It was with another 
group, out of Dayton, Ohio. And a couple of things about that 
were interesting, because we actually had a hearing and took 
testimony to try and work with the prosecutor's office in Clark 
County on this subject.
    From what I recall, there was a group that wanted to 
register voters, and they subcontracted with an agency to do 
the hiring and the training of these folks that would go out 
and register what they believed were unregistered voters. Well, 
they paid these folks based on the number of registrations that 
would come in.
    Well, it didn't take long before one or two employees 
quickly figured out, gee, we will make more money if we claim 
we signed up more people as voters. And that, in that 
particular instance, seemed to be what led to the fraud. If I 
recall, the prosecutor pursued it and the agency itself. There 
wasn't any type of conviction for it, but obviously the 
individuals that did this, were punished.
    So it caused me to kind of think about who is really at 
fault here, where is the real blame, is it folks just trying to 
make a living that kind of overstepped, or is it the training, 
as my colleague here mentioned? Or is it something that we need 
to do, you know, to work and outreach with groups so that we 
can prevent it.
    Mr. Ehlers. Mr. Lewis, let me just jump to you. You said 
ACORN has come in and periodically, it seemed to be a habit, 
just dumped a bunch of registrations on you at the last minute. 
Why would they do that?
    Mr. Lewis. Well, first let me say, I have seen it happen on 
both sides of the aisle in terms of dumping in on the last 
minute. The problem is that these groups I think all think that 
they are going to surprise the other campaign with how many 
people they have registered.
    And the truth of the matter is, if it is valid 
registrations that we are after as groups--and we welcome all 
the groups to do this--but they need to turn those in as they 
collect them, as they get them from folks. So that there is an 
orderly process here and so that we can indeed make sure that 
the voter has done everything the voter needs to do to be on 
the rolls.
    If they will do that, then we have legitimate voters that 
we are communicating with well in advance of an election. But 
by dumping all of them in that last 2 or 3 days before 
registration cutoff, they almost assure that we are going to 
end up disenfranchising some of those people.
    Mr. Ehlers. Thank you very much.
    Mr. Suleman, do you have anything you wish to add?
    Mr. Suleman. Yes, I do. We do see in the elections business 
registrations that are turned in improperly. Registrations can 
be termed fraudulent. But I think the system works. The system 
catches those registrations. They may be turned in, but those 
fake registrations are never put on the voter books. They are 
caught through our checks and balances that we have as local 
officials. We find them and then we say, okay, these are 
fraudulent. They don't go on the rolls. Those people don't show 
up to vote.
    So in that instance, the system does work. I have 
personally instigated six cases of elections fraud and gotten 
four convictions when I was in Ohio. And the fraud occurred at 
the petition level when, as Mr. Farrell said, organizations pay 
people to go out and get signatures for referendums or for 
initiatives or for campaigning. And they will pay $1 a 
signature or $2 a signature. They tend to pick up a phone book 
and fill out the forms.
    And they tend to be the unluckiest human beings in the 
world, because they pick dead people that we discover that are 
still in the phone book.
    So there is some fraud that exists, but I believe it exists 
more at the petition level than at the voter registration 
level. We catch the fraud at the voter registration level. And 
I think we are doing a pretty good job of preventing fraudulent 
voters.
    Mr. Ehlers. Well, I am from Michigan, and naturally we are 
very suspicious of fraud in Ohio, particularly in Big 10 
football games. [Laughter.]
    And so we recognize you have more problems than most 
states.
    Thank you very much. I yield back.
    Mr. Gonzalez. [Presiding.] Thank you, Mr. Ehlers.
    At this time the Chair is going to recognize the gentleman 
from North Carolina, Mr. Watt.
    Mr. Watt. Thank you, Mr. Chairman. I will be very brief, 
because we have been called for votes, and I am sure Mr. King 
would like to go, and I want to respect this panel and not hold 
him.
    Let me just, first of all, apologize to the members of this 
panel for not being here. We have been trying to deal with the 
financial crisis in which we have found ourselves. But I assure 
you that it was because of that crisis that I was not here. 
Because I think we could have an impending crisis around this 
election, and that would be equally devastating if the world or 
people in the United States walk away from this election 
believing that it has not been administered fairly, has not 
been--you know, the machines have broken down, the people have 
been standing in line forever.
    And, you know--so this is a serious, serious concern, 
especially given the level of interest in this. Especially 
given the level of new registrants. And when I walked in, 
somebody, I don't even know which one of you it was--and I am 
sure it was innocent, I am certainly not discouraging using the 
language that you used--but I am always disappointed to hear 
that we need to lower the expectation of voters.
    This is a democracy that, at least until recent years, was 
the symbol of democracy around the world. And we should have 
the very highest expectations that we can conduct an election 
that appears to the world and appears to our citizens to be a 
fair election. And the last couple of elections, we have really 
had some serious problems.
    Actually, being from North Carolina and knowing the level 
of under-count that has historically taken place going back--
not decisive of outcomes, potentially, but certainly indicative 
of real serious problems in our election system--we have got to 
raise our standards. And that is part of the reason that voters 
have high expectations, because this is America.
    So I hope that we can conduct an election this time. And 
one of the concerns I have is really the allocation of machines 
and the effectiveness of machines. Allocations--the prior 
secretary of state in Ohio, Mr. Blackwell, was here in our 
Committee, and you know, they apparently are using--according 
to him, he would like to use the same criteria in allocating 
machines that historically have been used in the past. And I 
don't think that is going to work in this election. We know 
that turnout in various communities is going to be higher--
much, much higher--than it has been.
    And for us to be using the same models that we have used 
and the allocation of machines based on historical voting 
patterns, in my opinion, would be irresponsible. And I can't 
say to my voters, lower your expectations about being to get 
into the voting booth to cast your vote in some reasonable 
time.
    And I shouldn't be asking my constituents to lower their 
expectations. I should be doing everything I can to live up to 
those expectations, because I believe that is what America and 
our democracy should be expected, and that is what we are 
expected to do around the world.
    So--believe me, I can't even--when I walked in I heard 
``lower expectations,'' and I don't even know which one of you 
it was that said it. And forgive me if I sound like I am 
fussing at anybody. I am not. But we can't lower our 
expectations in this area. This is central to our democracy. It 
is central to the way that we perceive ourselves and that way 
we are perceived around the world.
    And I honor and respect everything that you do to live up 
to those expectations, but please don't ask us to lower our 
expectations. Not the American people.
    Thank you, Mr. Chairman. I yield back. I didn't even ask a 
question, and forgive me--whichever one of you it was that said 
it, because I am sure it was said in the best of intentions. 
And my comments back are said with the best of intentions.
    I yield back.
    Mr. Gonzalez. Thank you, Mr. Watt.
    The Chair is going to recognize the gentleman from Ohio, 
Mr. Jordan, for 5 minutes.
    Mr. Jordan. Thanks. I thank the Chairman.
    And I want to thank our witnesses for being here today, for 
the work you do back in your respective states to help our 
election process.
    I want to focus my comments to my fellow Buckeye from the 
county just south of the one I live in, Mr. Farrell. And I want 
to pick up where Congressman McCarthy was just a few minutes 
ago and talk about this overlap that is going to be there in 
Ohio law starting next Tuesday, where early voting can start 
and registration can still be done, you can do it on the same 
day.
    Ohio law, as it was pointed out in Mr. McCarthy's 
questioning, Ohio's law is like Pennsylvania's law. You have 
got to be a citizen, you have got to be 18 years old, you have 
got to live in the state, you have got to vote in the precinct 
and county you reside in. And you have to be registered to vote 
for 30 days prior to voting.
    Next Tuesday, the absentee ballot voting can start in our 
state. And it is my understanding that earlier this month, on 
the 11th, the secretary of state issued a directive saying that 
in fact, you can do just what Mr. McCarthy described about and 
the potential problems that are associated with that, in my 
judgment, and frankly in his judgment. You can come in and--she 
is going to allow people to come in and register and the same 
day vote.
    Is that the case, Mr. Farrell?
    Mr. Farrell. I believe she advised boards to follow past 
practice and yes, allow that to happen.
    Mr. Jordan. And explain to me how that complies with Ohio 
law, which when I read it, says that the citizen of the United 
States is 18 years old and has been registered to vote for 30 
days. How can we allow someone to come in and register and vote 
on the exact same day? How does that comply with being 
registered for 30 days?
    Mr. Farrell. Well, first let me point out I am not an 
attorney, so I will try and tell you what I have heard from 
some of the election attorneys in our office. I think what this 
hinges on is the term ``vote.'' Is that when the ballot is 
turned in, or is it when the ballot is counted? Absentee 
ballots in Ohio are counted on election night.
    So one of the things that can happen in between the ballot 
actually being counted on election night and when that absentee 
was cast--regardless of whether it was during the 5-day window 
or 6 days prior to the election--is for voter registrations, 
there is a process to check and safeguard and detect someone 
that maybe is not eligible to register.
    With an in-person absentee ballot, it goes into an envelope 
and can be pulled, if you will, by the board, or if someone 
wants to challenge it and say, we have reason to believe this 
voter registration wasn't valid.
    Mr. Jordan. What do you do when someone comes in like in 
this situation? What are you going to do to verify that they 
are in fact a resident? I mean, what are you going to do to 
check and make sure they are an eligible voter?
    Mr. Farrell. Well, boards have a couple of things that they 
usually do to check. One is, as my colleague from Pennsylvania 
had mentioned, there is a statewide voter registration 
database--they can instantly look up to see if that person is 
registered somewhere else.
    The other thing is, they do have a window of time to 
process and mail a notice to this person. If that notice were 
to come back as undeliverable or there was some sort of flag 
regarding residency, again, because that ballot is in an 
envelope and set aside and not to be counted until election 
night, the board then could have a decision made on that voter 
registration which would disqualify that ballot from being 
counted on election night.
    Mr. Jordan. So her whole--the directive is based on her 
understanding that, because there is going to be 30 days from 
the time that that individual votes, that is when the clock 
kind of runs through, because the vote actually counts on 
Election Day. That is your understanding?
    Mr. Farrell. That is my understanding.
    Mr. Jordan. What if--let me give you a scenario, then. What 
if I am a poll worker assigned to work at the Republican 
polling station on a primary Election Day, and knowing that I 
am going to be busy that day, I get an absentee ballot before 
the primary election. And I ask for a Democrat ballot, and I 
vote that and turn that in. Would that disqualify me from being 
a poll worker for the Republicans on that primary day?
    Mr. Farrell. I would have to check on that. I don't know 
the answer right off the time of my head, I apologize.
    Mr. Jordan. My guess it would. You know, if I pull a 
Democrat ballot and I am assigned to work as a Republican poll 
worker, my guess it would disqualify me for that day. But 
according to your logic, it shouldn't, because that vote won't 
be counted until the end of Election Day later and I am not 
officially a ``Democrat'' until that is actually counted. That 
is my concern with the ruling the secretary of state's put on 
her plate.
    It doesn't make sense to me. It doesn't square with the 
law. But more importantly, it is the issue that Representative 
McCarthy brought up: can we really do the due diligence, have 
the transparency that we need to make sure we are having fair 
elections?
    Mr. Farrell. And now that you have mentioned that, I do 
believe under Ohio law, a person's party affiliation is 
determined by the ballot they cast in the primary. And I 
believe that affiliation----
    Mr. Jordan [continuing]. I would say most, and I would say 
most Ohioans, most Americans, think you vote when you vote. Not 
35 days later or whenever it is counted. When you vote is when 
you vote, and you should have been--according to Ohio law, an 
elector registered for 30 days prior to doing that. That is the 
problem with her ruling.
    And if it is my understanding, too, she did this in a 
directive on September 11th. Ohio law says that directives 
before Ohio don't have to have public notice, public comment 
after--excuse me, September 11. After September 12, they do. So 
she issued this before there could be the public comment and 
notice and all the things that are required under Ohio law. Is 
that true?
    Mr. Farrell. I would have to check the dates, sir. And I 
don't know if this was an advisory, you are referring to, which 
doesn't----
    Mr. Jordan. My understanding was its directive 2008-91 
issued on September 11th regarding this very issue, this 
overlap in when absentee voting and registration can both take 
place. And because it occurred before September 12th, there is 
not the public notice and public comment period that is 
traditionally there with Ohio law.
    Mr. Farrell. I will accept your word for it, sir.
    Mr. Jordan. All right. I thank the Chairman and yield back.
    Mr. Gonzalez. Thank you very much.
    The Chair will recognize Mr. Ellison for 5 minutes of 
questioning.
    Mr. Ellison. Thank you, Mr. Chair, and thank you for having 
this important hearing.
    I wonder, gentlemen, if you would offer any views on how 
government-issued photographic ID requirements might impact 
this upcoming election. I know in Indiana there is a 
requirement, in Arizona there is, there is a few other states 
that have them. Could you offer a viewpoint on how these impact 
this upcoming election, particularly in light of the Supreme 
Court ruling that upheld the Indiana law?
    Mr. Cortes. Again, this is an issue of great debate 
throughout the Nation. I stand by the belief that every state 
adopts laws and procedures that are suited for their state. In 
Pennsylvania, we don't have a photo ID requirement. We do want 
to make sure, though, that we can verify the identities of 
first-time voters. So we do have an ID requirement that 
includes not only photo identification, but also forms of non-
photo identification, such as a recent bank statement, pay 
stub, utility bill that shows a person's name and address.
    In other states, again, the issue has been debated at 
length, and the belief is that having the photo ID is a 
deterrent to fraud, and I respectfully just will comment that 
those states believe that that is in their best interest, and 
they believe that they have ways to mitigate the use of the 
requirement of the photo ID without disenfranchising voters. 
But again, I think that is a question that is best suited for 
those states that have that type of requirement. Pennsylvania 
is not one of them.
    Mr. Ellison. Mr. Lewis, you have a national purview on 
this. Do you have any views on this, particularly in some of 
the states that have these requirements?
    Mr. Lewis. Well, obviously, this has been one of those 
raging battles has gone on for 40 years in terms of elections. 
There are some who honestly feel that we should indeed have 
photo ID on everyone. And then there are those who say that by 
doing that, you really end up disenfranchising folks.
    And there is no easy resolution to this. I will say to you, 
the states that have it--and I think we are at 11 or 12 that 
are actually doing it--the ones that did it more recently than 
the ones that had it for a long time are our laboratory, and at 
this point so far, the allegations that it will slow down the 
process or cause administrative problems for the process seem 
not to have proved out.
    On the other hand, it still doesn't solve that age-old 
argument of whether or not it may or may not be unfair to 
certain elements of society. I think as long as the government 
of the states that do it actually make sure that they take care 
of paying for it, if they are going to order it, if they pay 
for it so that everybody who needs one has got one--then it 
seems to work okay.
    Mr. Ellison. My thought was that for the states that have 
those kinds of requirements--and again, I am on record as being 
very much those requirements--but for the states that have 
chosen to do that, I think it is important for them to do some 
public comment and notice so that people don't arrive at the 
ballot box and not have the proper equipment, the ID.
    Mr. Lewis. I agree with you. You know, you don't want folks 
showing up not knowing that they needed X, Y, Z in order to be 
able to vote. And yet at the same time, I am going to tell you 
one of the hardest things that we ever find in elections--as my 
colleagues here will tell you--folks don't show up ordinarily 
with their voter registration card. If they did, we would have 
a whole lot less likelihood of them being in the wrong place 
all the time.
    But the photo ID thing, at least so far--all I can tell you 
is just from what the experience has been so far--seems not to 
have been a major problem yet. That doesn't mean it won't be.
    Mr. Ellison. Except for in Indiana, there was the story 
about the 98-year-old nun who was turned away from the ballot 
box. And some of her colleagues were, too, and some of other 
folks were. Now it is true this is the first time it was 
implemented, and maybe it won't be as bad at the general 
election.
    But I think it is important for the record to be clear, 
there were people who were turned away in Indiana who would be 
otherwise eligible voters.
    Mr. Lewis. What I think we are really confronted with is 
that first-time voters--inexperienced voters and first-time 
voters--and those are two distinct categories, because you have 
some that are occasional voters--because this is not a habit 
for them, they don't know what to do in each instance. And 
particularly if they have changed residence of the state they 
were in. They are going to be the ones that we have the most 
difficult time explaining to folks, ``yes, but you needed this 
in order to do this.'' And so that is always an issue for us.
    It is one of the reasons that, I think you heard Secretary 
Cortes saying, in Pennsylvania he is pushing very hard to make 
sure that every voter knows what is expected of them before 
they get to the polls. And that is one of those things that we 
wish we had tons of money so that we could advertise. My God, 
it would give us some great relief just not to see a 
presidential ad once in a while so that you could see an ad 
about the voting. You know?
    Mr. Ellison. What about--I mean, elections are public in 
nature. I mean, yes, I have often thought to myself that it 
might be a good public service announcement in some of these 
states to say, hey look, you know, this is what you need in 
order to vote. And again, you know, in Indiana and other states 
that have these requirements, my thought is, look: while I am 
against these requirements, I think they are unnecessary and we 
shouldn't have them, they are there. I realize that--there 
needs to be some sort of concerted effort to let the public 
know.
    Particularly in an election like this, where you are going 
to have this enormous turnout, at least that is what folks are 
expecting, that we hadn't had in the past.
    Mr. Lewis. What ordinarily happens--and I can't say this in 
every instance, because I haven't looked, obviously, at all 
7,500 jurisdictions--but what ordinarily happens is that the 
elections officials are indeed, they are trying to tell you 
publicly in public news announcements, or they are mailing 
notices with the voter registration card telling you where your 
polling place is, also what you need to have with you in order 
to vote. Sometimes that gets there, sometimes it doesn't. 
Sometimes people read it, sometimes they don't remember getting 
it. You know, this is where we are.
    We try to notify. But the truth of the matter is, is we 
don't have the funds on the administration side, the election 
administration side, to do what would really be most effective, 
which is radio and television advertising to tell folks what 
they need.
    Mr. Ellison. Well, I will take that as something we need to 
start thinking about, Mr. Lewis. Thank you.
    My next question, and it will be my last one, is: you know, 
one of the things that also I think is somewhat disturbing is 
that in the last election, there were a number of jurisdictions 
in which before the election, people got flyers that were 
stating improper and actually inaccurate information that was, 
I think, designed to discourage them from voting.
    For example, in Milwaukee there was something, a flyer that 
had Milwaukee Black Voters League--you cannot vote unless you 
have, if you have any outstanding child support, if you have 
any unpaid parking tickets. And then of course, that was just 
Milwaukee. These flyers were found all over the country. And 
they were different and tailored to the jurisdiction.
    You know, if a voter gets something like this, maybe they 
are one of these inexperienced voters Mr. Lewis is talking 
about. Maybe they can be taken in by something like this. Is 
there any kind of--do your states and your jurisdictions have 
hotlines where people can call to get that quick voting 
information? And if you find out there is this sort of voter 
suppression kind of thing going on, what can you do about it?
    Mr. Cortes. Congressman, I am happy to address that issue. 
NASS is releasing today our survey of all the states in terms 
of our preparedness, and that is one of the issues that we 
cover. And I am happy to report that 36 states have toll-free 
hotlines that they utilize to report not only concerns that 
they may have, but to have questions answered, as well as to 
receive general voter information.
    There are also a number of groups, such as Common Cause and 
the League that have those hotlines available. And we encourage 
people to report and to contact the state election officials or 
county election officials for clarification.
    If I could, and in fairness to our colleagues in Indiana, 
Michigan, and Georgia that have the photo ID requirements, I 
just want the record to reflect that those states are making ID 
requirements central to their voter education and outreach so 
that it is taking place as we speak.
    Mr. Ellison. Thank you.
    Mr. Lewis. I think the real issue here is one of fairness, 
always. Fairness is what democracy is about. And any group or 
organization that seems to me to misdirect folks in terms of 
their rights as citizens of this country ought to be deplored 
everywhere. This is just not right. Voting has to be fair. And 
we cannot fear that folks who we don't like or don't agree with 
show up at the polls. If they are legitimate voters, they are 
entitled to be there, and we ought not to have anything that 
misdirects them.
    Mr. Farrell. In Ohio, the secretary of state's office is 
working closely with the attorney general's office. If there 
are situations that occur such as you describe, we would 
definitely want to work with them, see what the options were in 
terms of possible prosecution.
    Mr. Gonzalez. Thank you very much, Mr. Ellison.
    We are running under some time constraints, and we have 
seven witnesses on the next panel--but I know that Mr. Jordan 
has a request for an additional question. And I would just ask 
my colleague if it is going to be really brief? The reason is 
we have got to get to the next panel as Members come back.
    Mr. Jordan. I thank the Chairman. The Chairman will maybe 
note that I was real close to my five limit and no one else 
was. But I will be real brief.
    Mr. Farrell, tell me the difference between the directive 
and advisory opinion.
    Mr. Farrell. A directive, from what I understand, carries 
the weight of law and must be followed by boards of elections. 
An advisory is pretty much just advising them of ``here is what 
the law is.''
    Mr. Jordan. And I want to be clear. A directive prior to 
September 12th doesn't require notice and public comment? A 
directive after September 12th does, under Ohio law?
    Mr. Farrell. I am sorry, could you repeat that?
    Mr. Jordan. A directive issued prior to September 12th 
doesn't require public notice, or notice and public comment? A 
directive issued after September 12th of this year--you know, 
close to the election--does require notice and public comment, 
is that true?
    Mr. Farrell. From my understanding, yes, that is correct.
    Mr. Jordan. So the directive on this overlapping voting was 
issued prior to the requirement that we have notice and public 
comment.
    Mr. Farrell. If there was indeed a directive issued prior 
to the 12th, then yes, it would not require----
    Mr. Jordan. Have there been any directives issued by the 
secretary of state after September 12th up until today?
    Mr. Farrell. I am sorry, could you repeat that?
    Mr. Jordan. Have there been any directives issued after 
September 12th through today, over the past 2 weeks?
    Mr. Farrell. Not that I am aware of.
    Mr. Jordan. Have there been any advisory opinions issued in 
that same time frame?
    Mr. Farrell. I believe there have been one or two.
    Mr. Jordan. How come--do you know why the secretary of 
state would do an advisory opinion after September 12th and 
thereby--it seems to me a logical conclusion she is trying to 
avoid any chance for notice and public comment by issuing 
advisory opinions after that day.
    Mr. Farrell. I am assuming the reason the advisories were 
issued was in response to additional questions for advice 
boards had requested from our office.
    Mr. Jordan. Okay.
    Thank you, Chairman.
    Mr. Davis of Alabama. [Presiding.] Thank you.
    I believe, unless there are any other Members who are 
present, I think there are not, that concludes our first panel. 
And I thank our witnesses for being here. And I excuse the 
first panel.
    And want to welcome our second panel of witnesses and ask 
them to come forward.
    Mr. Davis of Alabama. Let me thank our second panel of 
witnesses, and given the size of the panel, I will introduce 
each member of the panel separately and then ask them to make 
their 5-minute statement. But there are a number of you.
    Our first witness will be Grace Chung Becker.
    Ms. Becker, welcome.
    Ms. Becker is the acting assistant attorney general in the 
Civil Rights Division of the Department of Justice. Prior to 
her current position, she was the deputy assistant attorney 
general of the Civil Rights Division as a former prosecutor in 
the criminal division of the Justice Department.
    Are you prepared to proceed, Ms. Becker?
    You have to turn on your mic. If you are prepared to 
proceed, you have 5 minutes.

  TESTIMONY OF GRACE CHUNG BECKER, ACTING ASSISTANT ATTORNEY 
   GENERAL, CIVIL RIGHTS DIVISION, U.S. DEPARTMENT OF JUSTICE

    Ms. Becker. Thank you very much, Mr. Chairman.
    Good afternoon, Chairman Davis, and other Members of the 
Subcommittee and the Committee. I am honored to appear here 
today to discuss the civil rights division's plans for the 2008 
general election.
    This is an unprecedented election year. As we have heard 
from the first panel, voters are registering in record numbers 
and record turnout is expected at the polls. Although the first 
panel witnesses and the constituencies they represent have the 
primary responsibility on Election Day for administering 
elections, there is an important role for the Justice 
Department to play, and we are preparing to do our part.
    I am fortunate to have a tremendously talented and 
hardworking team of about 40 attorneys and 40 non-attorneys in 
the voting section. I have asked them to vigorously enforce all 
of the voting statutes in the division based solely upon the 
facts and the law. I have echoed the words of Attorney General 
Mukasey and emphasized that politics has no role in our 
decision making in this election year.
    I know that Members of this Committee are particularly 
concerned about voter intimidation. The division takes a 
multifaceted approach to combating and preventing voter 
intimidation. First, we successfully brought lawsuits under 
section 2 of the Voting Rights Act that have included 
allegations of voter intimidation based on race, color, or 
membership in a language-minority group.
    We brought cases in New Jersey, Pennsylvania, Georgia, 
Boston, Florida and Mississippi. For example, we have addressed 
situations in which voters were subjected to hostile and 
discriminatory remarks and unfounded and discriminatory 
challenges; that they have had their ballot choices improperly 
influenced, coerced or changed; that entrances were blocked to 
polling places; that attempts were made to prohibit eligible 
voters from voting; that voters were challenged on the basis of 
race, and that they were subjected to hostile treatment.
    Another way to prevent voter intimidation is to empower 
vulnerable voters. For example, we brought 10 of the 12 cases 
ever brought under section 208 of the Voting Rights Act to 
ensure that voters have the assistor of their choice in the 
voting booth. In addition, we brought 29 cases under the 
language minority provisions of that act. Translated voting 
materials and bilingual poll workers empower nationalized 
American citizen voters and can prevent intimidation from 
occurring at the polls.
    Third, the division's election monitoring program also 
helps to ensure that voters are not intimidated. So far during 
calendar year 2008, we have sent 397 Federal observers and 158 
department personnel to monitor 51 elections in 47 
jurisdictions in 17 states. On November 4, hundreds of Federal 
Government employees will be deployed in counties, cities and 
towns across the country.
    The department will have a toll-free hotline with 
interpretation services. We will have a fax number and 
internet-based mechanism for reporting problems. As part of our 
pre-election outreach efforts, we have heard concerns over the 
longstanding practice of using small numbers of criminal 
prosecutors as monitors on Election Day. And while we have not 
heard of any actual intimidation resulting from this practice 
and have never received complaints from voters about it, we 
nevertheless take these concerns very seriously. Therefore, out 
of an abundance of caution, I have determined that no criminal 
prosecutors will be used as monitors on Election Day.
    I know that the Committee has also been concerned about 
voter ID laws. And while the Supreme Court has decided that 
Indiana's voter identification law is constitutional on its 
face, it is important to emphasize that the court also held, 
consistently with the department's position, that individuals 
can sue if a voter ID law is applied to them in an 
unconstitutional manner.
    In addition, the Civil Rights Division is prepared to take 
action if an ID law or any voting law is being enforced in a 
discriminatory manner. For example, this summer we filed and 
favorably settled a Voting Rights Act section 2 case in Penns 
Grove, New Jersey, that included allegations that Hispanic 
voters were required to show more identification than White 
voters. And this is even though the state law did not require 
any voter identification.
    In conclusion, the department stands ready to take any 
appropriate law enforcement action, whether civil or criminal, 
in response to voter intimidation that implicates the statutes 
that we enforce. We remain committed to vigorously enforcing 
all of our statutes where warranted by the facts and the law.
    Thank you very much.
    [The prepared statement of Ms. Becker follows:]
                Prepared Statement of Grace Chung Becker

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Davis of Alabama. Thank you, Ms. Becker.
    The second witness today on this panel is Paul Hancock, who 
is a veteran voting rights litigator. He was one of the 
litigators in Bush v. Gore at the Florida Supreme Court and 
U.S. Supreme Court level, and previously attained the highest-
ranking career civil service position in the Civil Rights 
Division of the Department of Justice.
    Mr. Hancock? You have 5 minutes.

TESTIMONY OF PAUL F. HANCOCK, PARTNER, KIRKPATRICK AND LOCKHART 
                  PRESTON GATES AND ELLIS, LLP

    Mr. Hancock. Thank you, Mr. Chairman.
    I address this issue as a Department of Justice official. I 
have worked on complying with the Voting Rights Act as the 
attorney general for the state of Florida. And I was involved 
in one of the most contentious voting rights cases in the 
history of our country.
    I think the overall theme that I would like to state to you 
today is that presidential elections are not re-run. So when we 
talk about preparing for this election, what we need to do is 
have a procedure in place, a program in place, for identifying 
the problems before the day of the election and correcting 
those problems before the day of the election, or at least 
promptly as the election is taking place.
    That differentiates this election from any other election 
that is conducted. The voting rights section, the voting 
section of the Civil Rights Division, also often has had 
Federal observers in place designed to monitor the election, 
decide whether problems existed, and worked to correct those 
problems later. That doesn't work in a presidential election. 
The problems need to be identified and corrected before the 
election is held.
    The only legal authority for the Department of Justice to 
observe the election process at the polling place arises from 
Voting Rights Act. And the sole legal basis provided by the 
Voting Rights Act for Department of Justice officials or 
Federal observers to enter the polls to observe the process is 
if the department believes, has a reasoned basis for believing 
that there may be denial or abridgement of the right to vote on 
account of race, color, or in contravention of the language 
minority guarantees of the Voting Rights Act. That is the only 
reason for being there.
    The Voting Rights Act was passed after a really sorry 
history in our country of voter intimidation and suppression 
directed at Blacks. And it was directed under the color of law 
by law enforcement officials and by state government officials.
    We have come a long way since then. The candidates prove 
that in this election. But the act has been in effect for only 
43 years. Many Americans who will turn up to vote at this 
election--many of them who have been away for many years--have 
lived through the suppression and intimidation that was 
effectuated under color of law.
    But the department is under--must apply a difficult balance 
here of having, monitoring to make sure that there is not a 
denial or abridgement of the right to vote on account of race, 
color or language minority status--at the same time making sure 
that law enforcement isn't used in a way that will have a 
countervailing effect of intimidating people from voting.
    I am pleased with what Ms. Becker said a minute ago, that 
criminal prosecutors aren't being used to monitor the election 
process this year. Because that reflects the consideration that 
needs to be given to the problems that might arise at this 
election.
    We likely, as we said, we will likely have the largest 
turnout and certainly the largest Black turnout in the history 
of our country. And we can expect that there will be confusion 
on the polls on the day of the election. And I suggest that 
preparations be made to avoid that.
    And I would like to just take some disagreement with what 
Mr. Lewis said in the first panel. And that is, I believe that 
election officials do have a responsibility to direct voters to 
the right polling place. And that is important in the context 
of the way the HAVA provisional ballot law has been implemented 
by the state. Let me just take a minute to explain that.
    When Florida enacted its election reform legislation after 
the 2000 problems, a provisional ballot provision was in that 
election reform legislation. And the Florida law, like the law 
of many states, provided that a provisional ballot would be 
counted as a valid vote not--it wasn't to be counted merely 
because a person was properly registered to vote. It was only 
to be counted if the person was properly registered and 
actually appeared at the proper precinct. So if the voter was 
supposed to be at this table and went to that table, and they 
are given a provisional ballot, that ballot isn't counted in 
Florida. And it isn't counted in many other states.
    Thus, the Department of Justice was very concerned about 
that provision of Florida law and the course of the section 5 
review process, and granted section 5 pre-clearance only on the 
condition that election officials would, before they gave a 
provisional ballot to any voter, would first look up the proper 
precinct for the voter and direct that voter to the proper 
precinct before they gave them a provisional ballot.
    I suggest to you that in many states--and it is not 
uniform--but in many states, including Florida, provisional 
ballots are an illusory promise. They most often aren't 
counted. They most often aren't valid votes. And the reason 
most frequently those are not valid votes is the person is just 
voting at the wrong table. They showed up at the wrong 
schoolhouse.
    HAVA now requires that state officials maintain a master 
list of registered voters, and there should be no issue with 
election officials, before giving the provisional ballot, first 
direct voters to the proper precinct. Discrimination under the 
Voting Rights Act--and let me just emphasize that--provisional 
balloting is an illusory promise.
    Mr. Davis of Alabama. Let me also ask you to wrap up 
quickly, Mr. Hancock, as we have so many panelists. You are 
over your time limit.
    Mr. Hancock. Sure. I will stop and leave it for 
questioning.
    [The prepared statement of Mr. Hancock follows:]
                 Prepared Statement of Paul F. Hancock

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Davis of Alabama. Thank you, Mr. Hancock.
    Our next witness is Karen K. Narasaki, who is the president 
and executive director of the Asian American Justice Center, 
has been a long-time advocate for the Asian American community 
and is a leading expert on immigrant civil liberties and human 
rights.
    Ms. Narasaki, you are recognized for 5 minutes.

   TESTIMONY OF KAREN K. NARASAKI, EXECUTIVE DIRECTOR, ASIAN 
                    AMERICAN JUSTICE CENTER

    Ms. Narasaki. Thank you, Mr. Chairman. I ask that our 
longer, written testimony be submitted for the record.
    Mr. Davis of Alabama. Without objection.
    [The prepared statement of Ms. Narasaki follows:]
                Prepared Statement of Karen K. Narasaki

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Narasaki. Thank you.
    According to the census, more than four million voting-age 
citizens who are Latino, Asian American, or American Indian and 
Alaska Native and who speak English less than very well lived 
in section 203-covered jurisdictions in 2000, 8 years ago. Many 
naturalized citizens, as you know, who are also racial 
minorities face discrimination when voting. And limited 
English-proficient citizens can have difficulty understanding 
complex voting materials and procedures. Too often, they face 
hostile or impatient poll workers or denied needed or lawfully 
required assistance.
    Unfortunately, section 203 non-compliance continues to be a 
problem. As a result, the Department of Justice has had to 
bring enforcement actions against cities like the City of 
Walnut in California on behalf of Asian American voters and in 
Kane County, Illinois on behalf of Latino voters.
    Similarly, the Native American Rights Fund and the ACLU 
successfully sued Alaska on behalf of Alaskan Natives to 
provide effective language assistance to citizens who speak 
Yup'ik, the primary language of minority voters in the Bethel 
region in Alaska.
    With elections less than 2 months away, we are urging that 
DOJ remind jurisdictions about their obligations under section 
2 and 203, offer technical assistance, and continue to pursue 
the enforcement actions. They must work to ensure that these 
jurisdictions are ready for the tens and thousands of new 
Asian, Latino and Native American voters who are being urged to 
come out this year.
    Some poll workers are reluctant to help language minority 
voters. Maybe they are unaware of how to help, or they are 
suspicious of the bilingual poll workers or the voters. 
Incidents include sending limited English-proficient voters to 
the back of the line because they are taking too long, or 
segregating them from the English-speaking voters. Even more 
problematic are poll workers who are openly hostile and 
discriminate against these voters who are not completely 
fluent.
    DOJ should urge jurisdictions covered by 203 to do a better 
job of recruiting, screening and supervising poll workers. 
These poll workers who are hostile or unwilling to assist 
should not be tolerated, and DOJ must hold jurisdictions 
accountable for not properly supervising and managing them.
    Problems also exist with poll workers who were under-
trained. For example, many were aware of section 203 or the 
existence of provisional ballots in the last election. Polls 
are also confused as to what ID requirements are required, and 
this can result in racial and ethnic profiling and wrongly 
asking minorities for ID that are not required.
    Additionally, many poll workers do not know section 208, 
which allows minority voters to take a person of their choice 
into the voting booth. DOJ must continue to monitor for such 
problems and remind jurisdictions to train specifically on 
these issues.
    Anti-immigrant sentiments and rhetoric have been growing, 
unfortunately, and consequently Asian American and Latino 
voters face hostility because of the erroneous assumption that 
they could not be citizens, including unwarranted challenges of 
their registration or at the polls, or even intimidation. We 
hope that the DOJ will actively engage and closely monitor 
areas where there have been particularly heavy anti-immigrant 
sentiments or acrimonious policy debates, to ensure that local 
election officials are doing all they can to prevent that kind 
of behavior from creeping into the polling place.
    Finally, agency requests that the Department of Justice 
looks into why there has been a decrease in bilingual poll 
workers in Santa Clara, including the Santa Clara County's 
registered methodology for determining how many bilingual 
workers are needed and whether or not there is section 203 non-
compliance occurring.
    We applaud the Department of Justice for bringing section 
203 cases against jurisdictions such as the ones that the 
assistant attorney general mentioned. DOJ also successfully 
brought an action against Boston on behalf of Chinese and 
Vietnamese voters. We urge them to monitor Boston during the 
upcoming general election, as they did during the recent 
primary.
    We also urge them to continue press the Massachusetts 
Secretary of State to fully transliterate candidate names in 
Chinese language ballots and boxes. We believe that a fully 
bilingual ballot for Chinese American voters includes these 
transliterated candidate names.
    Finally, the Congressional Asian Pacific American Caucus 
has asked the department about its plan for upcoming election 
in a letter dated August 22. It raises specific questions about 
several specific sites, such as: Why did DOJ declare a plan 
under section 5 that will reduce the number of Chinese and 
Korean interpreters at poll sites in New York, New York? We are 
hoping that they answer these quickly, in time for the 
election, so that corrections can be made.
    Thank you.
    Mr. Davis of Alabama. Thank you.
    Our next witness is Bryan O'Leary, who is a graduate of the 
United States Naval Academy and a former F-18 Hornet pilot. Mr. 
O'Leary, after he finished his time serving our country, 
participated in helping investigate the Department of Defense's 
voting program. He is now a public policy consultant at Crowell 
and Moring's public policy practice group.
    Mr. O'Leary, thank you for your service. You have 5 
minutes.

   TESTIMONY OF BRYAN P. O'LEARY, PUBLIC POLICY CONSULTANT, 
                         CROWELL MORING

    Mr. O'Leary. Mr. Chairman, distinguished Members of the 
Committee, thank you for inviting me to testify today.
    In 1952, President Harry Truman wrote to Congress regarding 
military absentee voting. He said, ``At a time when these young 
people are defending our country, the least we at home can do 
is to make sure that they are able to enjoy the rights they are 
being asked to fight to preserve.'' Over 50 years later, 
military voting remains a burdensome bureaucratic process that 
prevents our military men and women from being able to enjoy 
their rights as citizens.
    I experienced this broken system firsthand as a Marine, 
when I was not able to vote. Despite my lack of success, I was 
picked to be the voting assistance officer to help all of my 
Marines vote. My story is not unusual. Voting officers have 
little or no training; they are not JAG lawyers. They are 
front-line officers, oftentimes commanding soldiers, sailors, 
airmen and Marines in battle.
    It is absurd to expect that a young lieutenant who is 
commanding a platoon of Marines in Hellman Province in 
Afghanistan or Ramadi in Iraq is going to succeed sifting 
through local, state and Federal laws and regulations that are 
all different, deadlines and ballot requirements that are all 
different, in order to ensure his or her Marines can vote, 
while at the same time fighting a war in a remote, austere 
environment.
    Clearly, this is almost an impossible task. Even if that 
lieutenant could figure out all the different deadlines and 
rules, it is unlikely that those Marines would get their 
ballots in time to have them returned and be counted. Because 
of long delays shipping ballots to and from war zones, for the 
votes of our men and women deployed to Iraq and Afghanistan to 
count, today is their Election Day. Our military postal system 
has informed deployed soldiers that they should send in their 
ballots no later than September 30th in order to be counted on 
time. However, unfortunately, many states and counties will not 
even print their ballots and send them until October.
    And if those ballots do finally reach their correct local 
election officials, they are greeted by political party 
operatives and lawyers who are determined to throw out every 
military ballot that is not perfect. Throwing out a military 
ballot that was prepared in a war zone is shameful. Both 
political parties and both presidential campaigns should 
condemn any legal attacks or challenges challenging the 
validity of the ballots of our military men and women.
    The evidence continues to stack up that the DOD has failed 
our military men and women. This last week, the Pew Center on 
the States released a report that further documents that 
failure. Although 77 percent of the military said that they 
were very interested in voting, only 20.4 percent voted in 
2006--that is half the rate of the general public. In 2006, for 
the general public, 85.8 percent of absentee ballots requested 
were cast, versus only 26.5 percent of military ballots.
    If the military rates matched the general public rates, 
there would be roughly a half a million more military votes 
cast and counted.
    Mr. Chairman, I would like to ask unanimous consent that 
the Pew report be included in the record.
    Mr. Davis of Alabama. Without objection.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. O'Leary. Sadly, the Election Assistance Commission 
results were even worse. Of the estimated six million military 
personnel dependents and citizens eligible, only 992,000 
requested a ballot. Only 330,000 of those were cast. And we 
also know that 48,628 were rejected. This is a shocking rate of 
only 5.5 percent voter participation from military and overseas 
citizens.
    This problem could have and should have been solved years 
ago. Yet our Industrial Age bureaucracy has failed to embrace 
the Information Age. Technology is available today to securely 
encrypt and electronically transmit blank ballots to military 
men and women around the world. Congress directed the DOD to 
execute such a program in 2006, and the DOD failed to execute 
it.
    The Administration, the DOD, and the DOJ need to stop 
making excuses for their failure. Instead, Congress and the DOJ 
should stop accepting those excuses and force action to fix 
this problem.
    Thank you for allowing me to testify today. I look forward 
to your questions.
    [The prepared statement of Mr. O'Leary follows:]
                 Prepared Statement of Bryan P. O'Leary

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Davis of Alabama. Thank you, Mr. O'Leary.
    Our next witness is James Terry, who is the chief public 
advocate for the Consumer Rights League. And he and his 
organization have a long history of not only helping Americans 
register to vote, but also facilitating the participation in 
the political process.
    Mr. Terry, you have 5 minutes.

  TESTIMONY OF JAMES TERRY, CHIEF PUBLIC ADVOCATE, CONSUMERS 
                         RIGHTS LEAGUE

    Mr. Terry. Thank you, Mr. Chairman, Members of the 
Committee.
    I appreciate the opportunity to be with you today, and I 
ask that my extended remarks be entered into the record.
    Mr. Davis of Alabama. Without objection.
    [The prepared statement of Mr. Terry follows:]
                   Prepared Statement of James Terry

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Terry. The Consumers Rights League supports aggressive 
efforts to educate, motivate, register and assist all citizens 
in voting, so long as those efforts are legal. Unfortunately, 
there are some groups that don't seem to share that concern.
    First-hand accounts from current and former employees, 
major news stories, and court cases across the country expose 
corruption at every level of the Association of Community 
Organizations for Reform Now, or ACORN. To truly grasp the 
potential impact that ACORN's activities may have on the 
upcoming elections and future elections, it is important to 
understand their structure.
    ACORN is a massive organization with 150 subsidiary 
organizations and an estimated $110 million budget this year 
that is centrally controlled from the top down. Thus, there 
should be no distinction between crimes or alleged crimes 
perpetrated by personnel from affiliates, like Project Vote, or 
those from ACORN.
    A careful observer will note a 10-year record of voter 
registration fraud on the part of ACORN and Project Vote. Ten 
years and five election cycles is not a series of mistakes: it 
is a pattern. In fact, rather than showing any signs of 
improvement, all signs point to increased lawbreaking.
    A quick snapshot of ACORN's record from 1998 to 2007 alone 
includes thousands of false or fraudulent registrations in 
Missouri; at least two convictions of ex-ACORN employees 
following Colorado's 2004 election; the 2004 arrest of a former 
ACORN employee in Minnesota with 300 voter registration cards 
in his trunk; the 2000 indictment of several workers in 
Washington State, which has been cited earlier as the worst 
case of voter registration fraud in the history of the state.
    In April 2008, eight former ACORN employees in Missouri 
pled guilty to voter fraud in the 2006 election.
    Each time ACORN is accused of faulty registrations, the 
organization blames a handful of its supposedly rogue workers. 
It promises to clean up its act and impose tighter 
restrictions. Yet after 10 years, they have not been able to do 
so. In 2000 alone, ACORN's activities have prompted calls for 
investigations in nearly a dozen states: Louisiana, 
Pennsylvania, Connecticut, New Mexico, Texas, Nevada, Ohio, 
Wisconsin, Michigan, North Carolina, and just as recently as 
yesterday you can add Florida to the list.
    In July, Pennsylvania officials charged a former ACORN 
employee with 19 counts of perjury, making false statements, 
forgery and identity theft. In New Mexico, Bernalillo County 
officials are currently investigating 1,100 possibly fraudulent 
cards. In Texas, about 40 percent of the 27,000 registration 
cards gathered by ACORN from January to July have been rejected 
or placed in limbo. In Michigan, a case that was cited earlier, 
the secretary of state said problems appear to be sizable. 
Duplicate fraudulent applications is widespread.
    In Ohio, ACORN's pattern of voter registration fraud 
apparently includes the 73 registration cards turned in this 
year for just one individual. Cuyahoga County election boards 
officials have compiled a binder of evidence of suspicious 
activity. That binder is more than an inch thick.
    In Wisconsin, by the end of August, Milwaukee's election 
commission executive director had referred over 49 individuals 
to prosecutors for suspected voter registration fraud. Of them, 
37 were ACORN employees. And just last week, Durham County, 
North Carolina's election officials asked for an investigation 
of dozens of cards submitted by ACORN. One was for a 14-year-
old boy.
    ACORN routinely says it will clean up its act. Yet given 
its decade-long history of voter fraud, embezzlement, and 
misuses of taxpayer funds, ACORN's pattern of fraud can no 
longer be dismissed as a series of unfortunate events. We know 
about the thousands of fraudulent voter registration cards 
turned in by ACORN and caught by officials. But given the size 
of ACORN's efforts and the fact that the abuses appear to be 
systemic, we believe it is fair to question how many more 
fraudulent registrations have not been discovered.
    And furthermore, as this mega-organization with a decade's-
long history of violating the law has turned to get-out-the-
vote efforts, we believe it is fair to question how many 
fraudulent registrations may lead to fraudulent votes, or what 
other activities they may be willing to undertake to influence 
the election.
    These are serious questions, especially in light of recent 
election results which show that just a few votes can change 
the outcome of an election. While we do not presume to tell 
this Committee how to address this problem, we respectfully 
submit that our Nation's election system is facing a concerted 
campaign that raises serious issues that merit the Committee's 
oversight and intervention.
    Thank you for the opportunity to speak today, and I look 
forward to your questions.
    Mr. Davis of Alabama. Thank you, Mr. Terry.
    Our next witness is Jocelyn Benson, who is an assistant 
professor of law at Wayne State University Law School. She is 
also the founder and director of the Richard Austin Center on 
Election Law and Administration and is a member of the ABA's 
standing committee on election law.
    Professor Benson, welcome. You have 5 minutes.

 TESTIMONY OF JOCELYN BENSON, ASSISTANT PROFESSOR, WAYNE STATE 
                     UNIVERSITY LAW SCHOOL

    Ms. Benson. Thank you.
    Several years ago I served as a law clerk to the Honorable 
Damon J. Keith, a Federal judge on the U.S. Court of Appeals. 
Judge Keith famously cautioned us that ``Democracies die behind 
closed doors.'' Democracies also die, I believe, when the doors 
that lead to political participation and enfranchisement are 
pushed closed. They die when Americans lawfully seeking to cast 
a legal ballot are deterred or disenfranchised, and they die 
when government actors fail to ensure that pathways to 
democracy are free from the congestion of challengers who block 
lawful voters from participating in an election.
    This role of election challengers, whether they be 
representatives from political parties or other groups in the 
polls on Election Day, has increased in prominence in recent 
elections. Today I would like to detail a recent controversy in 
Michigan over the use of foreclosure lists to challenge the 
residency, and thus eligibility, of voters on Election Day.
    Two weeks ago, a Web site called Michigan Messenger 
reported allegations that Republican Party challengers may be 
using lists of foreclosed to challenge the eligibility of 
voters when they arrive to vote. Michigan demographics may 
suggest that voters on these lists may be disproportionately 
African American. Now these allegations, importantly, were 
forcefully denied, and I am not here today to challenge those 
denials. I instead wish to highlight the resulting confusion in 
Michigan over whether voters facing foreclosure wonder now 
whether they will still be entitled to vote in November.
    The fact is that under Michigan law, voters cannot be 
challenged without good cause. And under Michigan law, only 
residents who have moved outside of their city or township to 
another county prior to September 4 are required to re-register 
at their new address. Voters who move within a county, 
according to the Michigan secretary of state, are permitted to 
vote one last time at their old address.
    Thus, the listing of a voter's residence on a list of 
foreclosed homes does not, in and of itself, provide sufficient 
information to indicate that that voter has moved to a new home 
outside of that county prior to September 4, 2008.
    Nor should any list acquired from mailings sent to those 
foreclosed homes that bounced back as undeliverable lead to 
similar conclusions. The voter confusion that I have observed 
in Michigan since these stories emerged has been, in my view, 
compounded by a lack of clear and thorough clarification of the 
law from election officials in the state.
    For that reason, my first recommendation today is that in 
Michigan and in any other state dealing with voter confusion, 
the state's chief election authority issue clear directives to 
local election officials and the public on the law that ensures 
that voters and election officials are empowered with a full 
understanding of the law.
    My second recommendation is similarly, that election 
officials engage in extensive public education efforts and 
outreach that are focused on explaining the hows and mechanics 
of voting. In addition to press releases, public service 
announcements, mailings, phone calls, and also posters in the 
polling place that simply state the law in its entirety are, I 
believe, required to ensure that this education campaign is 
successful.
    In addition, I believe an education campaign is best 
coupled with my third recommendation, the development of 
collaborative relationships with community-based organizations. 
These organizations, I believe, know best what the needs of 
their communities are, and collaborative relationships between 
election officials and these organizations can help ensure that 
both are proceeding in the best interests of the voter.
    My last two recommendations deal with training and 
regulating challengers and poll workers. I believe that 
mandating training for challengers in Michigan and in other 
states and also improving training for poll workers will ensure 
that both are equipped with the knowledge of the law and ensure 
that the law is followed on Election Day.
    I also recommend the use of comment cards in the polling 
places on Election Day that would empower voters to interact 
with poll workers and evaluate and offer feedback on their 
experience.
    Thank you for the opportunity to testify today.
    [The prepared statement of Ms. Benson follows:]
                  Prepared Statement of Jocelyn Benson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Davis of Alabama. Thank you, Professor Benson.
    Our last witness for this panel is Kristen Clarke Avery, 
who is an expert on voting rights and election law. She is the 
co-director of the Political Participation Group at the NAACP 
Legal Defense and Educational Fund and has a long, extensive 
history of voting rights litigation.
    Ms. Clarke, you are recognized for 5 minutes.

   TESTIMONY OF KRISTEN CLARKE AVERY, CO-DIRECTOR, POLITICAL 
         PARTICIPATION GROUP, NAACP LEGAL DEFENSE FUND

    Ms. Clarke. Thank you.
    Founded under the direction of Thurgood Marshall, the NAACP 
Legal Defense Fund is the Nation's oldest, and we believe 
finest, civil rights firm that has served has served as legal 
counsel for African Americans over the course of the last 
several decades. LDF has provided testimony in support of the 
Voting Rights Act of 1965 and other Federal voting rights laws 
and core voting protections.
    The last two presidential elections have significantly 
undermined public confidence in our political system. So what I 
would like to do today is take my time to identify some 
specific actions that the Department of Justice can and must 
take to help restore that lost faith and confidence and help 
ensure that this election is a smooth one.
    First, DOJ must deploy Federal observers to protect 
minority voters in those areas of the country where we are 
hearing complaints of potential voter intimidation and 
suppression tactics that might rear their head on Election Day.
    Second, DOJ should terminate its use of criminal 
prosecutors as poll monitors. And I want to take a moment to 
recognize Acting Assistant Attorney General Becker's recent 
decision to cease this practice. But let me take a moment just 
to provide some context about why this has been a very 
important issue for us at the Legal Defense Fund.
    Criminal prosecutors at U.S. attorneys' offices have been 
at the front lines of aggressive vote fraud investigations that 
have been taking place around the country in recent years. And 
there certainly is a very long history that has shown that law 
enforcement officials and prosecutors who lie at the heart of 
their efforts can have the effect of intimidating minority 
voters at the polls.
    We are pleased that the Department of Justice has decided 
to reconsider its practice and shift course here, and we hope 
that this will become a permanent policy on the part of the 
Justice Department.
    Third, the Justice Department should develop an action plan 
for Election Day, an action plan to respond to the serious 
problems that might emerge both on or immediately prior to the 
election. We want DOJ to be proactive, and we are in a position 
where we can foresee and anticipate some of the problems that 
are likely to arise. We know that there will be high turnout. 
We know that there may be long lines. We know that we face the 
potential of seeing situations that we have seen during the 
2000 and 2004 presidential elections.
    Emergency Election Day litigation may be necessary to 
ensure that all voters receive a fair and equal opportunity to 
cast their ballots. Although the relief that would be sought in 
any emergency litigation will vary depending on the facts at 
hand, we certainly know that an extension of poll hours may be 
appropriate in those jurisdictions that are not equipped or 
prepared to handle high turnout, or in areas where machines 
malfunction or where polling sites open late.
    By way of another example, a court's order may add value 
where poll officials are failing to offer provisional ballots 
to voters pursuant to the Help America Vote Act. In recent 
elections it has been the advocacy community and the civil 
rights organizations that have largely borne the burden here. 
DOJ should construct and publicize its own plan for turning to 
the courts on Election Day where local and state officials 
prove unwilling to voluntarily to take steps necessary to 
quickly resolve the problems that might emerge.
    Fourth, the Justice Department's goal should be our goal: 
making sure that everyone who wants to vote in this election 
cycle gets to do so. And what does that mean? That is making 
sure right now that there is compliance across the board with 
the mandates of the National Voter Registration Act. Making 
sure that DMVs and other state agencies are offering 
registration opportunities as mandated by state law. Making 
sure that those agencies are timely transmitting those forms to 
election officials so that the forms can be processed.
    But above and beyond DOJ's statutory enforcement 
responsibilities, I also think that DOJ can use its leverage to 
encourage state and local officials to make every effort to go 
above and beyond their ability to reach historically 
disenfranchised populations. In the state of Alabama, a local 
activist by the name of Reverend Kenneth Glasgow recently 
initiated a non-partisan voter registration drive aimed at 
reaching eligible, but not yet registered voters inside of 
local jails. Although the registration drive was initially 
supported by the Alabama prison commissioner, the drive was 
terminated after receiving complaints from the state's 
Republican Party leadership.
    To the extent that these eligible voters, a 
disproportionate number of whom are African American, may 
already encounter significant barriers in their efforts to 
register and vote, voter registration drives such as these 
should be encouraged.
    Mr. Davis of Alabama. Ms. Clarke, let me encourage you to 
wrap up, since you are over the time limit.
    Ms. Clarke. I will wrap up. I urge Congress and this 
Committee to consider a post-election oversight hearing that 
measures the success in the administration and conduct of the 
November election against the series of very good 
recommendations that have been offered during today's hearing.
    Thank you.
    [The prepared statement of Ms. Clarke follows:]
               Prepared Statement of Kristen Clarke Avery

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Davis of Alabama. Thank you, Ms. Clarke.
    And let me thank all the witnesses and remind them that 
their full written statements will be made a part of the 
record. And I will take up the first round of questions for 5 
minutes.
    And Ms. Becker, let me begin, if I can, with you and try to 
dispose of one matter very quickly. During the first panel, 
there was a lot of conversation about a particular group called 
ACORN. And Mr. Terry made some statements that were, shall we 
say, unflattering with respect to that group. So let me consult 
the record.
    To your knowledge, are there any pending Federal 
indictments regarding ACORN? Towards membership and activities 
connected with ACORN?
    Ms. Becker. That is a very important issue. That is an 
issue which is typically handled by criminal prosecutors in the 
93 U.S. attorneys' offices around the country----
    Mr. Davis of Alabama. But do you know of any?
    Ms. Becker [continuing]. Consultation of the election crime 
unit of the public integrity section of the criminal division. 
And they would be the ones that would be in the best position 
to know that. We in the Civil Rights Division are focused 
primarily on voter access and the voter intimidation and 
suppression arm of it. But there are other components that 
handle those issues.
    Mr. Davis of Alabama. Well, does that mean that you don't 
know the answer to the question? Do you know if there are any 
pending indictments or if there have been any pending 
indictments in, say, the last 4 years against ACORN or its 
members at the Federal level for registration activities?
    Ms. Becker. I am aware of one guilty plea involving ACORN 
employees attempting to defraud the ACORN organization.
    Mr. Davis of Alabama. Was it in connection with voter 
registration?
    Ms. Becker. Yes.
    Mr. Davis of Alabama. Now, my understanding is that--I am 
frankly not familiar with that instance. I know of one instance 
where there was an indictment that was brought after the 2004 
election. My understanding is that it was at the Federal level. 
My understanding is that that indictment was dismissed; and 
very unusually, it was dismissed with prejudice, meaning that 
the government couldn't come back and bring back the claims 
again.
    So I simply want to make that observation, given the 
consistent references to ACORN today.
    But I want to move to another line of questions. Professor 
Benson talked at some length, Ms. Becker, about allegations 
regarding, I believe, the state of Michigan. And regarding 
efforts in Michigan to prevent people who may have been 
foreclosed from casting a vote. When you hear Professor 
Benson's testimony, what is your reaction as someone who is in 
charge of enforcing the voting rights laws? Does that send up a 
red flag for you, people trying to limit the vote for folks who 
have been foreclosed?
    Ms. Becker. If those allegations were true, that would be 
something that would be of concern to us in the Civil Rights 
Division. I notice that foreclosure doesn't necessarily mean, 
you know, that somebody is no longer living in their particular 
home. It doesn't necessarily mean that they have been evicted 
or the home has been repossessed. And so that is something that 
we would want to continue to monitor closely.
    We would be focused primarily on two areas in the Civil 
Rights Division. If that information is being used to challenge 
voters at the polls in a discriminatory fashion on the basis of 
race, color, or because they are in a language minority group, 
that would be something that we would be looking for.
    We would also be concerned if they are using those lists to 
improperly remove voters from the voter registration lists to 
the extent they may implicate some of the statutes that we 
enforce here in the civil rights----
    Mr. Davis of Alabama. You note that you are concerned about 
it. There have been various newspaper reports, and you have a 
live witness who is here today who appears to be knowledgeable 
on the question. What steps is the Department of Justice, your 
particular division, taken since you have heard about the 
issues related to foreclosures?
    Ms. Becker. My understanding of the testimony, and 
Professor Benson probably can confirm this, is that there was 
media reports expressing an intention that was denied. There is 
an allegation that a statement of intention was made, and then 
there is a strong statement of denial--so we are continuing to 
follow the situation very closely as we approach Election Day. 
This is a very important issue. But at this point, we are 
proceeding very carefully and cautiously.
    Mr. Davis of Alabama. Well, I would certainly, and I think 
this Committee, or at least this side of the Committee, would 
encourage your vigilance. The fact that there is denial--I 
don't spend all of my time reading the newspapers to see what 
people say when they are accused of a crime, but I think 99 
percent of the time the denial is what you hear before the 
facts are adduced.
    The second set of questions: there was extensive reporting 
in the metro Washington-Virginia area about erroneous 
information given out by a Virginia registrar which suggested 
that college students could, if they voted in Virginia, their 
parents could lose their ability to claim them as a deduction, 
that they could lose their financial aid. You are aware of 
those news reports, I assume, Ms. Becker?
    Ms. Becker. I am.
    Mr. Davis of Alabama. Does that concern you?
    Ms. Becker. That is also something that has been a concern 
to the Civil Rights Division.
    Mr. Davis of Alabama. And what steps have been taken based 
on that concern?
    Ms. Becker. The rules determining when college students can 
register to vote in their particular jurisdictions vary from 
state to state. And certainly, as we heard from the first 
panel, there has been some action taken at the local level or 
the state level to address this situation. But it is primarily 
a state law matter as to whether or not those students can 
register and whether or not they are being improperly----
    Mr. Davis of Alabama. Well, it is a state law matter----
    Ms. Becker [continuing]. Based upon residency.
    Mr. Davis of Alabama. It is a state law matter, but the 
Voting Rights Act obviously covers state law.
    Ms. Becker. Yes. And our concern here would be a law 
exactly along those lines, Congressman Davis, in that if it 
implicates one of the statutes that we enforce; if we are 
seeing that these allegations are resulting, for example, in 
improper rejections of voter registration lists in violation of 
one of the Federal statutes that we enforce, that may be 
something that we would be very interested in looking at 
closely.
    So we are closely monitoring these reports as well to see 
if there is appropriate jurisdiction and action for us to take 
in civil rights.
    Mr. Davis of Alabama. Ms. Becker, we are both over our 
time, but if I can ask the indulgence of my friend from 
Arizona, and I will extend him an additional minute as well. 
What you just said triggers the last question I want to pose to 
you.
    On the DOJ website, there is a question and answer section. 
The question is, what responsibilities does the Justice 
Department have with regard to voter fraud or intimidation? And 
the answer on the website says, ``In some exceptional cases 
where voter fraud or intimidation involving racial basis occurs 
in local or state elections, Federal criminal charges may be 
brought by the criminal section of the Civil Rights Division.''
    I understand that you don't run that division, but help me 
understand what that means, ``some exceptional cases.'' Because 
my understanding of the statute is that the statute confers 
upon the Department of Justice jurisdiction involving voter 
fraud or intimidation involving racial bias in any local or 
state election. I don't think it delineates between the 
exceptional and the garden variety. So tell me what exceptional 
means.
    Ms. Becker. I don't have the Web site text in front of me. 
But my understanding is as I have testified, which is that 
voter fraud prosecutions, criminal prosecutions, are handled by 
U.S. attorneys' offices around the country in consultation with 
the criminal division. We have limited criminal jurisdiction in 
voting matters related to voter intimidation and voter 
suppression when race, color, national origin or religion are 
implicated. And that is set forth by regulation in 28 C.F.R. 
section 0.50 and 0.55.
    Mr. Davis of Alabama. So your position is that 
``exceptional cases'' refers to cases involving racial bias, 
and there is not some separate class of cases.
    Ms. Becker. None that I am aware of.
    Mr. Davis of Alabama. Okay--before drafting.
    Let me yield to my friend from Arizona, the Ranking Member.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And Mr. Chairman, in all sincere respect, I want to address 
one of the questions you had asked related to a Federal 
indictment pending. Most of the indictments or potential 
indictments or investigations or pending indictments that I was 
referring to in my opening statement would probably be pursued 
or probably are being pursued on the basis of state law. And I 
think that that is an important consideration.
    Ms. Becker, the Pew Center for the states' military and 
overseas citizen voting project just released a report 
confirming the fact that military voters cast votes at roughly 
half that of the general population. Eighty-six percent of the 
general population who request absentee ballots actually cast 
those ballots. But only 26 percent of military personnel who 
request an absentee ballot cast their ballots. Very clearly, 
those members of the Armed Forces who want to vote--they 
obviously want to vote--but they are not able to due to the 
tragic shortcomings in the system of ballot delivery.
    And that has got to change. It is a tragedy. So how do you 
suggest that Congress go about changing that injustice?
    Ms. Becker. Congressman, thank you for that question. You 
are raising a very, very important issue. As someone who has 
worked in the Pentagon and as a civilian for the United States 
Army and for the Department of Defense, I think that this is a 
very important issue. I can tell you that the enforcement of 
that statute, the Uniform Overseas Absentee Voting Act, UOCAVA, 
is shared between the Department of Defense and the Department 
of Justice.
    Our role in the Civil Rights Division is to ensure that 
states are getting adequate time for sending out the absentee 
ballots to our men and women in uniform overseas, as well as 
overseas citizens, and providing enough time for it to come 
back. Just in the last week I have approved two UOCAVA 
lawsuits, and we are working with the jurisdiction to try to 
resolve those issues. This is a time period where we work very 
actively in that area to make sure that there is adequate time 
well before the election.
    Some of the issues that were raised by Mr. O'Leary are very 
important issues. Those are issues that fall within the 
jurisdiction of the Department of Defense, and I have shared 
those concerns with the Department of Defense.
    Mr. Franks. Thank you very much, Ms. Becker.
    Mr. O'Leary, maybe I can turn to you. First of all, thank 
you for your service. I know that individuals such as yourself 
don't go out into wars to fight because they hate what is in 
front of them. They do so because they love what is behind 
them. And I honor you in every way, sir.
    As Election Day approached in 2004, there were stories 
circulating about parents of Service members calling campaign 
headquarters on Election Day to complain that their son or 
daughter wanted to vote in the election, but had not received a 
requested ballot. In your opinion, is the Department of Justice 
doing enough to monitor the Defense Department's efforts to 
make sure that those dedicated servants who are serving our 
country and their families have every opportunity to vote by 
absentee ballot in a timely manner to ensure that their votes 
count?
    Mr. O'Leary. Thank you, Congressman.
    First of all, I would be remiss if I didn't applaud the 
DOJ's work to hold the states accountable. Unfortunately, I 
mean, you really have a broken system, and we need to hold the 
Department of Defense accountable. You know, we have made it so 
that this broken system can be in effect where there are 
different rules and different requirements in every state.
    For years, the Department of Defense has said it is going 
to take 45 days. Ballots need to be sent 45 days prior in order 
to get there on time. And we haven't changed anything. The 
Department of Defense is not facilitating it this year. There 
were two amendments on the National Defense Authorization Act 
on the Senate side that failed to get a vote to expedite 
ballots coming back.
    But you know, when we say over and over again that it takes 
45 days, and there are still states that aren't printing and 
sending their ballots until October, and at the same time the 
military postal service is saying the ballots need to be sent 
from Afghanistan or Iraq on September 30th, we have a problem. 
We have a civil rights issue, and it is a civil rights issue 
that is worth litigating over.
    Mr. Franks. Mr. O'Leary, I guess my last question--
obviously, this has got to affect everyone on the Committee. I 
know, and I am just going to be--there is a pink elephant in 
the room, and that is a lot of the military favor Republican 
candidates. And certainly that may be part of my motivation 
here.
    But the ultimate, and the deepest motivation here, is to 
see those people who, rather than talking about freedom as we 
do on this panel, are going out and giving their lives to 
defend it. And if they don't have the opportunity to vote, it 
just seems like it is a disgrace to the entire system. So if 
you could say any one thing that you could do, to encourage 
Congress to do or the Department of Defense to do, what would 
be one thing that you would do to try to solve this issue?
    Mr. O'Leary. Well, I would urge Congress to call on the 
Secretary of Defense to immediately ensure that military 
ballots get urgent handling. Now, if that takes contracting 
with FedEx or UPS to get overnight shipment of those ballots 
back from theater, you know, then that needs to happen. Whether 
the--and frankly, one of the problems with that on the Senate 
side is the postal unions that didn't think that was a good 
idea. Well, you know what? I think our troops should take a 
higher priority than the postal unions.
    Mr. Franks. Well, thank you, sir. Thank you for your 
service, and thank you, Mr. Chairman.
    Mr. Davis of Alabama. Thank you, thank you.
    Our next questioner will be the distinguished Chair of the 
full Judiciary Committee. Before I recognize him for questions, 
I simply want to make one quick addition to my friend from 
Arizona's comment. I will remind us of Al Gore's excellent 
example in 2000, when he had an opportunity on a closely 
contested election to challenge military ballots. He and his 
running mate declined to do so, and I want to make sure the 
hearing doesn't conclude without saluting them for that.
    Mr. Chairman, I will leave the next question to you. They 
have just called a vote. If you would like to proceed, or if 
you would like us to recess now, and we can come back and you 
can pick up the questions after vote?
    Mr. Conyers. Oh, I will start now.
    Mr. Davis of Alabama. Okay. The Chairman is recognized.
    Mr. Conyers. Did you say that you commended him for not 
challenging the ballots?
    Mr. Franks. I commended him for doing that. There was no 
insult intended at all.
    Mr. Davis of Alabama. I certainly meant to commend him, Mr. 
Chairman.
    Mr. Conyers. Well, I am not so happy that he didn't 
challenge the ballots. I mean, why are we so--I have to talk to 
both of you Members after this hearing.
    But anyway, we are all here to learn.
    This may be one of the most important hearings that our 
Committees together have ever had. The recent history of voting 
problems is legendary.
    Ms. Becker, you are in the one place in the Department of 
Justice where we can take care of that. And you have been 
before us, I believe this is your third time? Remind me, how 
long have you been in this position?
    Ms. Becker. I have been with the Civil Rights Division 
since March of 2006, and I have been acting since December of 
2007.
    Mr. Conyers. Yes. Now, have you ever heard of Professor 
Spencer Overton?
    Ms. Becker. The name doesn't ring a bell.
    Mr. Conyers. Okay. Have you ever heard of Mark Crispin 
Miller?
    Ms. Becker. No.
    Mr. Conyers. Okay. Well, we don't have much time, because 
Mr. Overton has written extensively on the subject which brings 
us here today. I think his most recent book is ``Stealing 
Democracy: The New Politics of Voter Suppression.'' And just to 
make sure that you start on it right away, we are going to give 
you a copy of it. Well, I suppose I should loan you a copy, 
since we bought it with the government resources. Please.
    Ms. Becker. I would be happy to purchase a copy.
    Mr. Conyers. No, I can loan you a copy, it is all right. I 
trust you. [Laughter.]
    Now, the other book is Mark Crispin Miller's ``Fooled 
Again.'' And that is about the same subject.
    Now, we agreed before the Committee hearing with 
Congresswoman Zoe Lofgren--and I would like to add any of our 
colleagues of the two Committees that want to join us--we were 
going to meet extensively on this subject. We asked to have the 
Department of Justice staff meet to with the Judiciary 
Committee staff because there is a certain amount of 
artificiality about the hearings. They are formal, they are 
stilted, there is a 5-minute rule, digressions, and votes.
    And there is a lot to be said when you have two branches of 
the Federal Government trying to improve the voting system. We 
are almost walking distance apart. Why can't we meet more 
frequently, without the stenographer and television, and all 
that?
    So I would like for us to meet more frequently, especially 
since we are not happy with only two or three markedly 
insufficient meetings between staffs.
    Now, you are not responsible for all the problems that the 
Committee has with the Department of Justice. But we are all in 
this together--that is the way I feel about it. I do not want 
people after November 4, saying, ``Why didn't the Department of 
Justice do this, that or the other thing?'' They are going to 
say, well, what was the Judiciary Committee doing? And what was 
the House Administration Committee doing with a whole 
Subcommittee on Elections?
    Everybody on both Committees wants to facilitate the vote. 
We want to create openness. We want to provide security. We 
want to improve the Armed Services' participation. We want to 
preclude fraud. There is a whole range of activities--and I 
know pro bono groups and non-profits have the same goal.
    Now, this is a democratic system. What is to prevent all of 
us from working very closely together over and above the 
Committee hearings, of which there are not likely to be any 
more, to work together toward this great goal of ensuring the 
integrity of the voting system in perhaps the highest voter 
participation in the history of the country? In many ways, it 
is a momentous election.
    I understand that Chris Coates is here today.
    Ms. Becker. Yes, sir.
    Mr. Conyers. Is that right? Who is Chris Coates?
    Ms. Becker. Right behind me.
    Mr. Conyers. Dozens and dozens of problems have been 
raised. Some have been adequately responded to. But I liked 
what the gentleman in the first panel said: we are not seeking 
perfection. All we want to do is make it as efficient as 
reasonably intelligent people can make it.
    So I would like to enlist not only Ms. Becker, who has 
already agreed to this, but all of our panelists. We need to 
get the election system on track. There are some things we 
can't do. Unfortunately, we can't increase the funding to the 
level that it should be. I wish we could.
    But given other than that, we will need to work together as 
well as we can.
    In closing, Mr. Chairman, I feel better today than I did 
after the last hearing we have had about elections. I mean, 
they were not very pleasant at all. It seems to be that we are 
up to speed now. So I want to commend you for Chairing the 
Committee and giving me as much time as I needed to get this 
off my chest.
    Mr. Davis of Alabama. Mr. Chairman, you always have as much 
time as you want.
    We are going to kind of figure out our housekeeping a 
moment, Ms. Becker. But before I do that, I want to make one 
other observation. I think I asked you about a question of a 
Web site, and I think you clarified to me what you mean the 
language to say. I want to ask you if, I will have the staff to 
give you a copy of this. Because at a minimum, we have a 
reference to an exception, in front of a clause, in front of a 
subjunctive reference to ``may.'' And no matter where you are, 
that can raise confusion. So it is certainly not the most 
elegantly drafted sentence I have ever seen, and I will ask you 
to look at changing this section that I reference so it says 
what you mean it to say.
    And we have approximately 7\1/2\ minutes left on a vote. 
Mr. McCarthy, my friend from California, assures me that he 
will take less than 5 minutes, so I recognize him.
    Mr. McCarthy. Thank you, Mr. Chairman.
    My comment is to Mr. O'Leary. Because what you raise is one 
to me, very, very important. We had a hearing in House 
Administration. And I have a bill up and the companion bill 
over in the Senate side, Senator Cornyn, as well. What it does 
is exactly what you recommend: that contract out and allow, 
where it would be traced delivery back and forth. We send stuff 
across this country, around the world. You go on the internet 
and see exactly where it is, you know where it is located. And 
I believe that would be a very good answer going forward.
    And I would like to work with you in the future on how to 
get this through, because we had a hearing on it. I think there 
is some opposition on the other side because they are afraid 
somebody who might win the contract might not be union. And I 
would rather just see the men and women have the right to vote. 
But I appreciate your service, and--if the Chairman would 
indulge, I would just yield any time left to my colleague from 
Ohio.
    Mr. Davis of Alabama. Mr. Jordan, you are recognized. I ask 
you to be mindful of the fact that we have 5 minutes left on 
the vote. So I assume you intend to be extremely brief so we 
can all go vote.
    Mr. Jordan. Mr. Chairman, can I come back, then, after the 
vote?
    Mr. Davis of Alabama. Yes, certainly.
    Mr. Jordan. I appreciate the gentleman yielding. Thank you.
    Mr. Davis of Alabama. Thank you.
    We are going to recess the hearing. We have approximately 5 
minutes left in the vote. The hearing will resume after 
approximately 25 minutes of real time, as we have about three 
votes.
    Hearing is recessed.
    [Recess.]
    Mr. Gonzalez. [Presiding.] Going to call the Committee 
back. Reconvene at this time. I know we have maybe a couple of 
witnesses that will be walking back in, so we will wait for 
their arrival. But I can at least tell you what the afternoon 
holds for you and that will be just a couple of us here. There 
may be others that will be filtering in.
    But we do appreciate the patience that you have shown, and 
your testimony is important. And as you are aware, your written 
statements are made part of the record, as well as your 
testimony this morning, your responses to the questions.
    Mr. Gonzalez. At this time the Chair is going to recognize 
my colleague, Mr. Jordan, from the great state of Ohio. And I 
want you to know that I was pulling for the Buckeyes against 
USC, it just didn't turn out that day.
    Mr. Jordan. Sure didn't.
    Mr. Gonzalez. And of course, we will welcome back Professor 
Benson when she arrives. But I have been told that the question 
being posted by Mr. Jordon is not to Professor Benson. So 
accordingly, we will proceed at this time.
    Mr. Jordan. I thank you, Chairman. I want to thank our 
witnesses for coming today and for your service, particularly 
Mr. O'Leary, for your service to our country.
    My question is actually going to go--I am going to go to 
Mr. Hancock and Mr. Terry.
    And I will start with Mr. Terry. I want to just highlight 
what Ohio is planning on doing, what our secretary of state is 
planning on doing. And this was raised in the first panel, when 
we had someone from the Ohio secretary of state's office here. 
But starting next Tuesday, you can begin to vote absentee. No-
fault absentee we have in Ohio.
    And you can also, our law requires you register 30 days 
prior--be registered, you know, the typical thing to be a 
qualified elector. So there is going to be a 1-week window of 
time where our secretary of state has said that she is going to 
allow registration and voting--same-day registration and voting 
for this week time period starting next Tuesday and going 
through October 6th.
    I believe there is a real potential for mischief and 
problems there. I want to get your thoughts, what you think 
about that possibility. And the ability to make sure that we 
have fair elections, make sure that we have qualified voters. 
To make sure it is fair.
    And I am actually--I would like to, when I look at Mr. 
Hancock's testimony, he had a few sentences in bold print. 
Presidential elections simply are not a re-run, you can't do 
them over. He talked about the central problems must be 
identified and resolved prior to Election Day.
    And we have heard--we know this is going to be a record 
turnout election. So with all that in play, I can't figure out 
why--and I think our law is clear that you shouldn't be able to 
do this, but nevertheless, that is the decision of our 
secretary of state. I would like your thoughts on that.
    Mr. Terry. I am certainly not an expert on Ohio elections, 
but I think any time that you have a loophole or at least an 
apparent loophole of that size or that kind of an overlap, it 
should be concerning. But I think from the respect of ACORN and 
perhaps similar groups, what would be even more concerning is 
the size of their effort.
    If you look at--you sort of asked a question, you know, how 
much damage can be done in a 1-week time. You are looking at, 
you know, they have already produced hundreds of thousands of 
registrations in the state of Ohio. And have, you know, 
hundreds if not thousands of individuals on the ground. And I 
think that you would want to look at--you would hope there were 
certain controls within their organization and controls within 
the state of Ohio to sort of prevent that overlap. But I think 
it is a sizable loophole and the size of the operations that 
are going on out there should be of great concern.
    Mr. Jordan. It seems to me that, you know, once that vote 
is cast and it is in the form that they keep it at the board of 
elections, they are going to have this huge turnout, it is 
going to be tough to really thoroughly check and make sure this 
individual was in fact a qualified voter.
    And we all know what happens on election night. Count the 
vote, count the vote. We haven't thoroughly checked, count the 
vote. And I think there are real problems.
    Mr. Hancock, I would like your comment.
    Mr. Hancock. I would just point out that the Voting Rights 
Act eliminated residency requirements for voting, and the state 
laws that you talk about were all enacted in accordance with 
that. And basically the structure is, people who were properly 
registered and move shouldn't be denied the right to vote. So 
they can either vote at their new location or their old 
location, depending on the timing of when they moved. And that 
30-day requirement is the Federal standard that they use. As 
long as they are there 30 days before the election, they should 
be entitled to register and vote.
    And if it is shorter than that, they can vote where they 
were before. So it is, there are--I share your concern about 
what happens on Election Day, and there is going to be a lot of 
confusion on Election Day. And I reiterate what I said before. 
I think we best will have a fair election if we try to address 
these issues before Election Day rather than trying to address 
them on the day of the election.
    But I do think that on the day of election, that it is 
important under the new Help America Vote Act that there will 
be a master list of all registered voters and where they should 
be voting, the precinct that they should be voting at. And a 
provisional ballot should be a last resort, not the first 
resort, but only the last resort. The first step that should be 
made would be to look at that polling list to see if the people 
are not on the list of the precinct where they showed up, then 
are they properly registered in another precinct, and they 
should be directed to that precinct before they are given a 
provisional ballot.
    And I think the Department of Justice can play a role in 
this, just as it did with us in Florida when I was with the 
attorney general's office. The department at that time was very 
active in making sure that as we implemented the new 
provisional voting procedure, that we would do it in a way that 
tried to make sure that people were properly registered. But 
let's not--this is a presidential election, and in many 
respects it shouldn't matter what table you go to. You are 
entitled to vote for president if you are properly registered..
    But we don't want their vote nullified just because they 
went to the wrong precinct. And the department was very tough 
on us in Florida at the time when I was with the state, to make 
sure that we were going to do that right. And I would hope the 
department does the same thing with other states.
    Mr. Jordan. Thank you.
    Thank you, Chairman.
    Mr. Gonzalez. Thank you very much, Mr. Jordan.
    At this time, the Chair is going to recognize the 
Chairwoman of the Subcommittee on Elections of the House 
Administration Committee, Zoe Lofgren, of the great state of 
California. But Zoe I need to remind you all, in the year 2005, 
the Texas Longhorns beat both Ohio State and USC. Actually, it 
was 2006 in the Rose Bowl.
    Ms. Lofgren. USC is in a different state--in southern 
California. [Laughter.]
    Actually we no longer have hostilities between north and 
south in the state of California. Although at one time, that 
did exist.
    I am interested in what the Department of Justice is going 
to do between now and Election Day. We had a chance to talk 
briefly informally before this hearing began. There were a 
number of problems in the 2008 primaries that emerged. We know 
the problems that occurred in 2004, and I think it is wise for 
us to assume that some of those problems could present again.
    Director Mueller from the FBI was before the Committee, I 
think it was last week or earlier this week--time flies at this 
point in the congressional session. And Ms. Waters asked what 
the FBI was doing to investigate violations of the Voting 
Rights Act. I mean, we have--I have a couple of lawyers on the 
Elections Subcommittee staff. You have the entire FBI to find 
out about wrongdoing.
    He didn't seem to know what they were doing on this. Can 
you tell us?
    Ms. Becker. Thank you very much for raising that important 
issue on the Voting Rights Act.
    The FBI is certainly an important partner of ours in our 
criminal investigations, both in the criminal division of the 
Justice Department and when there are specific civil rights 
crimes that occur on unrelated voting or on civil rights 
crimes. The Voting Rights Act is a civil statute where we do 
not utilize the FBI. Our investigations of the Voting Rights 
Act are----
    Ms. Lofgren. If there were a RICO conspiracy, wouldn't that 
be a problem?
    Ms. Becker. If there are criminal--if there are criminal, 
if we observe any indicia of criminal, we can certainly make a 
referral. And that is something that is within our jurisdiction 
to do.
    With respect to the Voting Rights Act, we have filed a 
number of lawsuits which are set forth in the written statement 
that I have provided to the Committee on the Voting Rights Act. 
In addition, we have done training to officials in all 93 U.S. 
attorneys' offices. We will be at their offices on Election 
Day, so that when they receive calls about potential violations 
of the Voting Rights Act, they will be able to direct it to the 
Civil Rights Division.
    We have done outreach with both state and local officials 
and with civil rights organizations to inform them about the 
statutes that we enforce----
    Ms. Lofgren. But let me just ask you--what about 11(b), 
isn't that a criminal statute?
    Ms. Becker. 11(b) of the Voting Rights Act is a civil 
provision that prohibits voter intimidation. There are criminal 
statutes that also prohibit voter intimidation--for example, 18 
U.S.C. section 594 might be one potential statute that would be 
enforced by the criminal section of the Civil Rights Division.
    Ms. Lofgren. Let me ask you about what we might do before 
Election Day. I will just recall that in 2005 Hans von 
Spakovsky wrote to the secretary of state of Arizona, which has 
a very strict voter ID law, that for those who did not have ID, 
that they did not have to offer a provisional ballot.
    Well, that wasn't true. I mean that was wrong advice that 
Mr. von Spakovsky volunteered to the department. It later had 
to be retracted, but it did cause confusion and may have 
suppressed--you know we don't know what the impact was. It 
certainly wasn't a positive impact in terms of----
    Are opinion letters going to go out unsolicited from your 
department? And how are you going to make sure that the advice 
given is correct and nonpartisan?
    Ms. Becker. Congresswoman, I think it is very important for 
us to inform the jurisdictions of the statutes that we enforce.
    I have sent out letters on, for example, the Uniformed and 
Overseas Citizens Absentee Voting Act, because there are 
certain timeframes where they need to get those ballots out 45 
days before an election. So those letters have already gone 
out.
    I intend to send another letter to state and local election 
officials to talk about the statues that we enforce, including 
the language minority provision of the Voting Rights Act, which 
has been raised by other panelists here, as well as other 
issues involving the wide variety of statutes that we enforce 
in the Civil Rights Division, so that they know what the 
Federal law requires.
    Many of them are very experienced. They have worked with us 
in the past, or they have been sued by us in the past. And 
hopefully, that will help inform some of their decision making 
also.
    Ms. Lofgren. Now, the attorney general has told civil 
rights groups that having a smoothly running election that did 
not violate the civil rights of Americans was a very important 
top priority for him.
    And as we have discussed before the hearing, I am concerned 
that some practices that have been engaged in have had not only 
the effect, but clearly the intent of suppressing or 
disenfranchising minority voters, specifically vote caging 
programs that target neighborhoods that are minority--primarily 
inhabited by minorities.
    What is your department doing to stop that?
    Ms. Becker. There are four different things that we can do 
in the Civil Rights Division when we hear about allegations of 
vote caging.
    If these vote-caging lists that are compiled are being used 
to challenge voters at the polls in a fashion that is racially 
discriminatory, then that is certainly something that we can 
bring a lawsuit under the Voting Rights Act.
    In addition, if those lists are being used to improperly 
remove voters from the voter registration list, that may be 
something that we can look at under the National Voter 
Registration Act, which under the NVRA the way they set forth 
specific criteria in terms of when voters can be removed.
    And if you look at five of the eight cases that we have 
brought under Section VIII of the NVRA to ensure that voters 
who should be on the list are on the list either because 
jurisdictions have allegedly improperly removed them or failed 
to include them when they should have included them.
    Ms. Lofgren. But let me ask you this. If I don't know what 
kind of investigative effort is being made by the department. 
But we have had in past years ample evidence of vote caging 
efforts that were directed entirely to African American 
neighborhoods.
    Do you think that is proper?
    Ms. Becker. And the other thing that we can--well, what we 
can do if we find about these allegations before Election Day, 
we can send monitors and observers out to the polls.
    Ms. Lofgren. But what are you going to do to stop the 
process, the racially motivated process of suppressing African 
American votes?
    Ms. Becker. Oftentimes our presence at the polls on 
Election Day will ensure that those lists are not used at the 
polls. We work with state and local election officials. 
Oftentimes they have cured the problem when they hear about 
allegations of vote caging as well. We----
    Ms. Lofgren. Have you considered suing to enjoin a process 
that is racially motivated and discriminatory such as that?
    Ms. Becker. If it would come----
    Ms. Lofgren. I mean you are lawyers. You are full of 
lawyers.
    Ms. Becker. If one of the Federal statues that we enforce 
are implicated, we certainly are prepared to take any 
appropriate action.
    Ms. Lofgren. I see my time has expired, Mr. Chairman. I 
thank you.
    Mr. Gonzalez. Thank you very much, Ms. Lofgren.
    The Chair is going to recognize himself for a couple of 
questions quickly, and I am going to ask the same question of 
each of you, but I am going to ask for a yes or no, whether you 
agree with me or not.
    I believe that the greatest impediment or challenge to 
conducting fair elections, robust elections, and efficient 
elections in this country would be the following, as far as the 
hierarchy of concerns.
    First and foremost would be the logistics of conducting the 
election and all that that would entail, from the polling place 
to the machines to the ballot, including ballot design, and 
then of course personnel, the proper training and competent 
personnel.
    Next, I imagine a great impediment is going to be voter 
intimidation and rules and such that make it so hard, so 
complex, and the misreading of those rules and such that deny 
people.
    And then the ugly kind of disenfranchisement that some of 
my colleagues have referred to such as the caging, the 
intimidation that was referred to in the written testimony by 
Mr. Lewis of the poll watchers appearing to be officials when 
they are not.
    And lastly, but of concern, and which has been brought out 
prominently in today's hearing, is going to be the potential 
for fraudulent registering--and I use that word very 
carefully--registering of votes--not necessarily the casting of 
the vote, but just voter registration and fraud.
    Do you agree with my analysis that that would be the 
hierarchy of impediments and challenges to the way we conduct 
elections today in attempting to achieve fair, robust and 
efficient elections? Simply yes or no.
    Obviously, you know this is the lawyer question where you 
just want a yes or no, and I appreciate your patience with 
that.
    And I will start with Attorney General Becker.
    Ms. Becker. I think they are all very important concerns, 
Congressman Gonzalez, and I wouldn't be one to categorize any 
of them, but I think they are all very, very important.
    Mr. Gonzalez. Well, but you are. And let me explain why. 
You have limited resources. Where would you apply those limited 
resources?
    If you were a doctor and someone came into the emergency 
room that had a serious head wound, serious chest injury and a 
hangnail, would you be getting all of your resources to treat 
the hangnail? No.
    And that is our responsibility as elected officials, as 
well as individuals in the different departments and agencies.
    Mr. Hancock, your own experience?
    Mr. Hancock. Yes, I would say that that is a pretty 
comprehensive list, and I wouldn't quibble with it.
    I would say for this oversight hearing, however, that 
focuses on the voting section in the Voting Rights Act, that 
suppression of minority voters is a very important issue in 
this election. And in the previous talk we hear racial animus 
is not a necessary element of a claim under the Voting Rights 
Act.
    If people are targeted because of their race, the design 
may be to achieve a partisan political objective, but it still 
implicates the Voting Rights Act.
    And my friends in the department have always been put in a 
difficult position of enforcing the act when it might be viewed 
as having some partisan results.
    We heard today about how overseas voters--military voters--
might be more apt to vote Republican. That doesn't have any 
impact on how that law should be enforced.
    We have heard how efforts to challenge suppression of Black 
voters might benefit the Democratic candidate. That is not a 
factor in deciding whether the case should be brought.
    If there are efforts to suppress voters in violation of the 
Voting Rights Act, the department has an obligation without 
regard to politics to pursue those violations.
    Mr. Gonzalez. Right.
    Mr. Hancock. And I think your waterfall of issues is valid.
    Mr. Gonzalez. Thank you.
    Ms. Narasaki?
    Ms. Narasaki. I very much agree with your hierarchy of 
issues. And it strikes me. I am very excited because there is 
so much excitement among immigrant Americans, who have worked 
hard to be able to meet the requirements of citizenship and 
will be voting for the first time.
    And anybody who has had the opportunity to see someone be 
able to exercise for the first time the true mark of being a 
citizen in the U.S. has to be concerned about whether that 
person will be able to exercise.
    And as you know, as a minority you are never really--you 
can never really take for granted that you will be welcomed at 
anywhere you go at the polls.
    And I think that the heated debates about immigration are 
going to make it very challenging for many of these new 
immigrants to vote. And I am very concerned that their first 
experience would be one where they are made to feel not 
welcome.
    Whether it is because of intentional intimidation or 
confusion, lack of training, I think all of those things would 
be quite a shame for this Nation.
    I do find that the allegations of voter fraud are very 
overblown, and there are some very good studies that I would 
like to submit to the record, if possible. One is called ``The 
Myth of Widespread Non-Citizen Voting,'' which was done by 
Truth in Immigration, which is a project of the Mexican 
American Legal Defense Education Fund.
    And the other is the Brennan Center for Justice, ``The 
Truth About Voter Fraud,'' which documents, in case after case, 
that when you are talking about really a handful of votes, a 
handful of registrations, that really does not impact the 
election, the issue of minorities who are made to feel 
unwelcome and unable to really cast their vote, that will be a 
legacy that will hurt us for years to come.
    Mr. Gonzalez. Okay. Miss Narasaki, let me clarify 
something. You have something that you want to submit for the 
record. Is that correct?
    Ms. Narasaki. Yes, sir.
    Mr. Gonzalez. Okay. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Lofgren. Mr. Chairman?
    Mr. Gonzalez. And then I will yield to Ms. Lofgren at this 
time.
    Ms. Lofgren. I, unfortunately, had to have a meeting with 
the speaker, which prevented me from being here to receive the 
testimony, although I have had a chance to read it.
    And I was so anxious to ask Ms. Becker the questions that I 
asked that I didn't have a chance to say thanks to Karen for 
being here all the way from--you know she does wonderful work 
not only in California, but throughout the United States.
    And it is a pleasure to see someone from home who is here. 
And I just neglected to say that.
    And I also did want to--I am advised by counsel that 11B of 
the Voting Rights Act, although in the civil section, is 
actually a criminal statute.
    So I think we should find--you know get to the bottom of 
that. I don't want to get into an argument here today, but 
maybe we can pursue that and reach a conclusion together on 
that point after the hearing.
    And I thank the gentleman for your----
    Mr. Gonzalez. You are welcome.
    Reclaiming my time, Mr. O'Leary, I know you are not here to 
give maybe this kind of opinion, but I think you have had 
enough experience with logistics and how we do things.
    But I want to make one comment. I appreciate everything 
that you are doing. You are now a resource in my book with my 
staff, because we are getting responses from DOD and others 
that are not satisfactory as to why we can't start doing some 
voting projects and pilot projects with the military overseas 
via the Internet.
    So I will really welcome some of your input.
    But do you have an opinion on my question that was posed to 
the panel?
    Mr. O'Leary. I appreciate that, Mr. Chairman. And I would 
agree that the points that you brought up are in order, and the 
five points are important.
    I am not going to quibble one or the other about 
priorities. But really I think you know fundamentally what this 
gets down to is a matter of will to do the right thing for the 
country, thinking long-term and not thinking in terms of what 
our partisan benefits are going to be if one group--you know if 
we work for one group or work for another group, we need to 
think to the long term to the good of the country.
    And I would hope that Congress has an attention span that 
goes past the November election.
    Mr. Gonzalez. Just keep reminding us. That is----
    Mr. O'Leary. Thank you, Mr. Chairman.
    Mr. Gonzalez. Mr. Terry?
    Mr. Terry. Yes, sir. I certainly agree with the list. I 
think that they are all perhaps equally important, because I 
think they are probably very interrelated. And it takes all of 
them to come to what I think we have all agreed that the goal 
is that of fair elections.
    And if you take, for instance, the voter registration 
component, I think you can see where it will affect every other 
item on your list.
    The logistics--if you are talking about in cases where you 
are talking about 27,000 potentially fraudulent--or erroneous 
even--registrations, the logistics of trying to deal with that 
at the polling place on Election Day, the personnel it takes to 
do that.
    Certainly on the voter intimidation, manipulation of 
registrations is sort of the core element of the caging of 
this.
    And I think they are all equally relevant and should be 
addressed to achieve a fair election.
    Mr. Gonzalez. And I would agree with you conceptually. The 
problem is, to the degree and the extent that you have any of 
these factors actually existing, not just the potential, but 
the reality.
    And so I am saying we need to be dealing with the reality.
    And I want to go on with the--Professor Benson?
    Ms. Benson. Thank you. I believe in data driven decisions. 
And based on that, anything that blocks any eligible voter from 
voting and disenfranchising them is a problem.
    And to your list I would add in that regard voter education 
and clarity, which I believe is the responsibility of the 
government to ensure that every voter is aware of her rights.
    In that case, if they arrive at the polls and they are 
intimidated or told that they can't vote, that they are aware 
that they can and they are able to produce any necessary 
evidence to ensure that they vote.
    So I would add voter education on the qualifications of 
voting and the requirements on Election Day where the polling 
place is.
    And I would emphasize that I do believe it is the 
responsibility of election officials and the government 
generally to ensure that every voter knows how to vote.
    Mr. Gonzalez. Thank you very much.
    Ms. Clarke?
    Ms. Clarke. The one thing that I would add to that list is 
the failure of a lot of states to put in place a contingency 
plan for the problems that we know are going to happen, are 
going to emerge on Election Day.
    We have got to be prepared to put in place a Plan B for 
when Plan A fails us. We have got to be prepared to turn to the 
courts to get orders to extend poll hours or order the release 
that is necessary that will make sure, make certain that every 
voter gets to cast a vote that counts on Election Day.
    So I am concerned about the lack of contingency plan and 
emergency plan in a lot of states.
    Mr. Gonzalez. Thank you very much.
    At this time I do want to inquire. I know that the Chairman 
of the full Committee of the Judiciary is here--if he has any 
further questions or observations before we wrap it up.
    Mr. Conyers?
    Mr. Conyers. Yes. Thank you very much. I want to thank you 
for all of your work. I think it was quite productive today.
    And of course I am indebted to the witnesses for their 
stamina, first, and their contributions, secondly.
    A couple of things occur to me. The rhetoric that comes 
from the symbolic and actual importance and significance of 
voting can really get quite remarkable. I mean everybody agrees 
it is important, sacred, the basis of a democratic 
representative government.
    What I wanted to ask as we close, do any of you have any 
recollections of the history of voting in America? I mean it is 
not the most beautiful picture you would want to teach young 
people that are going into the--that are looking at the voting 
process.
    This election is marked for the young people that have been 
brought into and caught up in and engaged in the electoral 
process in numbers never before recorded.
    But there are a long list of unsavory incidents in the 
history of the electoral process in America. Does anybody 
remember them besides me? Not that I was there, but I have been 
around for a little longer than most everybody in this room.
    But using the Gonzalez technique, let us go down the row. 
What do you think, Ms. Clark? We are talking about the history.
    To come into this without any full knowledge of what has 
gone on before can leave you in a rather elevated aspiration or 
keep hope alive mode that belies what has been reported as the 
true history of voting in America.
    Ms. Clarke. During your remarks I was reminded of Bloody 
Sunday and folks who marched across the Edmund Pettus Bridge in 
Selma, Alabama, and who fought and gave their lives to see that 
all citizens in our country have the ability to exercise the 
fundamental right to vote.
    So we at the Legal Defense Fund continue to fight and will 
continue to fight and expect that the others here on the dais, 
including the Justice Department, will do everything in its 
power to make sure that all voters can cast their ballots in 
November.
    Ms. Benson. I thank you for reminding us of the very 
important history that came before all of us. I am a former 
resident of Montgomery, Alabama, and spent some time--a lot of 
time--in Selma. And so I in fact every March would go, when I 
was down there, to the bridge and take my students down there 
every March now to go to the bridge.
    So I think it is crucial to remember that. And back to what 
I was saying with regards to election administration, I do 
fully believe in data driven decision making with regard to the 
priorities for election administration.
    And I believe in historical data as well. In that regard I 
think voter intimidation and any ongoing efforts to 
disenfranchise any voter needs to be taken in light of the 
context of history and the way that seemingly innocent policies 
in the past have been used to disenfranchise voters, 
particularly historically to disenfranchise populations like 
African Americans and Latino voters and voters of Asian descent 
and Native American voters.
    And so I think it is a priority for all of us to ensure 
that our election system encourages the participation of 
everyone, disenfranchises no one, and that we move forward 
based on addressing any limitations that we know block voters 
from voting on Election Day.
    Mr. Conyers. Thank you.
    Mr. Terry?
    Mr. Terry. Thank you, Mr. Chairman. I think perhaps the 
word ``recollection''--my recollection is probably very 
different from yours, probably more based on things I have read 
in books.
    But I think that what we have as a country come a very long 
way through some very bad times, but I think if there is one 
thing that we can probably all agree on leaving here today 
after the discussions is that we still have a long way to go.
    And we certainly appreciate the Committee's time in 
addressing this.
    Mr. Conyers. Thank you.
    Mr. O'Leary. Mr. Chairman, I think we can all agree that we 
all need to fight to create a more perfect union, but in that 
regard I think from women's suffrage to the civil rights 
movement, this country has come a long way, and we have a lot 
to be proud of.
    And I know that it is the business of this body to look at 
the ways to make things better, but at the same time we should 
recognize how great a system we have.
    Ms. Narasaki. Mr. Chairman, my recollection begins actually 
even before you get to vote. My grandmother immigrated in the 
1920's from Japan, and by law she was not allowed until the 
1950's to become a citizen because she had come from Japan.
    And that has been one of the ways that Asian Americans have 
faced a series of suppressions of our vote. Then my parents 
were interned with my grandmother during World War II, even 
though they were born here. And I am certain that they were not 
given an opportunity to vote during those days.
    But I think it is important to note that it is not just our 
history. We just went through the reauthorization of the Voting 
Rights Act with your leadership. And we know that all of these 
things are still happening.
    And then when we have the hearings and when we reached out 
and heard from tribal leaders in South Dakota, who just 4 years 
ago were talking about how they were being deprived of their 
right to vote, I think it is important for Americans to 
understand it is not just our history, it is also what is going 
on right now.
    And I very much appreciate the fact that you are doing this 
hearing to bring that to light.
    Mr. Conyers. Thank you.
    Mr. Hancock. I would say that you nailed it, sir. And I 
would add that our preparation for this election has to be 
implemented in the context of that history.
    And I would give you one example from our--in Florida in 
2000--and I would add to what you said that the discrimination 
was effectuated under color of law by government officials.
    And so when in 2000 police officers outside of Tallahassee 
set up a drivers license checkpoint near a polling place, it 
was viewed as harmless by White citizens, but southern Blacks 
were intimidated because of what they live through.
    So this is not ancient history. We are going to have a lot 
of voters who live through this.
    And that is why it is particularly important, as we balance 
this issue of vote fraud with the right to vote and the Voting 
Rights Act, that we not--we do it in a very delicate balance so 
that in effectuating criminal laws, we are not intimidating 
people from voting.
    And that is I think this department took a terrific step 
forward with this year's plans to not use criminal prosecutors 
for that reason.
    So we have a very--I mean we have made remarkable progress, 
and the candidates on this ballot show that progress, but we 
still live in a context of a very sorry history of 
discrimination in this country, that we need to make sure as we 
plan for this election that we understand that.
    And to give you one other example in the housing context, 
someone in your generation who reads a housing ad that says 
housing is restricted might do that differently than a younger 
African American person.
    So we have to go forward with this plan for this election, 
recognizing how discrimination can be effectuated in very 
subtle ways. And it is not, as I said before, racial animus is 
not a prerequisite for a claim under the Voting Rights Act.
    The question is are people being singled out or targeted 
because of their race or national origin or language minority 
status? That is not a difficult standard.
    And some of the things we are hearing about now certainly 
raise issues under the Voting Rights Act that I suggest the 
department should be looking at actively with investigations.
    Mr. Conyers. Thank you, Mr. Hancock. Does that suggest that 
caging could be illegal if racism was not even involved?
    Mr. Hancock. People target--voter suppression is done 
because the people doing it believe that the persons they are 
targeting are more likely to vote for the opposite party.
    And the question is what is their reason for believing 
that? The Detroit, the Macomb County incident--and I am not 
going to discuss the merits of that. I am just going to discuss 
the allegations.
    But if people who face foreclosure notices are being 
targeted to be challenged, the question is why does someone 
believe that people who had a foreclosure notice are most 
likely to vote for the other party?
    And if you look at foreclosure statistics, I think they 
would show that they are disproportionately minority. So there 
becomes a link there.
    We know in this election that people could be targeted for 
suppression based on the color of their skin because of the 
candidates that we have in this election.
    So yes, I would say that those allegations raise claims 
under the Voting Rights Act. I am not commenting whether they 
can be proved or can't be proved, but I think that they 
certainly raise issues that implicate the Voting Rights Act.
    Mr. Conyers. Thank you.
    Ms. Becker?
    Ms. Becker. I agree with my other panelists here that 
certainly Selma is one. I was just reading yesterday--last 
night--Congressman Lewis' book and was just admiring his 
bravery during that time period.
    One other person that I would like to note in terms of 
historical perspective in Fannie Lou Hamer, who was one of the 
individuals who was named in the 2006 reauthorization act, 
which the department is currently defending the 
constitutionality of in Federal court.
    She was again another person who exhibited tremendous 
bravery, a woman who was just a regular person like so many 
Americans here today. And while progress has been made, I agree 
with the other panelists that there is more work to be done.
    Mr. Conyers. Now, looking at just a little bit different 
dimension, we have also in our history allegations of a lot of 
unsavory practices in voting.
    Half a pint of whiskey if you vote, and vote right--
whatever that might have meant to the person giving out the 
alcoholic beverage.
    Stories of a Chicago machine politics in which the ward 
boss would go into the polling place with the voter to make 
sure he or she voted the right way. No one was depending on 
anyone's integrity.
    And we have had--I hate to raise this with the Chairman in 
the seat here, but in Texas we have had some elections that 
involved former President Lyndon Johnson that have been written 
about from different perspectives.
    Indeed, even the Kennedy election within our memory was 
highly debated and contested for many, many years.
    Louisiana--you could write volumes about voting practices 
there that I can only hope have been ended--and throughout the 
South in its entirety.
    So what are you suggesting, Chairman Conyers?
    Well, I am suggesting that we keep these things in 
perspective as the patriotic rhetoric rises to the sky. 
Elections are a reflection culturally of a people. I mean, the 
whole notion of war by any other means--a great way to duke it 
out in America is to win an election.
    Well, like in sports, people resort to excesses to win. I 
mean you want to win. The question on--I just saw it leaving 
the majority leader's office on, I think, it was Time or 
Newsweek magazine. It said, ``Will McCain win nasty?'' 
Everybody knows what that means. They could put in anybody 
else's name.
    There is something in our cultural situation like in 
sports. U of M has got to beat MSU in Michigan or else. Well 
and, of course, Michigan State is just reverse, and so it is 
across the country. I mean sports is a great way to get it off 
your chest. Let's pulverize these guys. Let's win.
    And in our system it translates over into everything: 
elections, voting. But I haven't heard any discussion of that. 
In other words, if we just ignore that and say, ``Well, 
everybody is honorable and ethical, and everybody wants 
everybody else to vote, and we don't want any hanky-panky or 
froth.
    But, look, we are all human, so how does, Attorney Avery, 
this factor into it? We are trying to get the best, fairest 
election we can in 42 days, so what about that factor? There 
are people that are saying, ``We have got to win. Look, this 
election is so critical. We have got to win it.''
    Ms. Clarke. I think that some of the examples that you 
raised, you know, may very well be true and are isolated, 
frankly. The examples of persons who are seeking to buy votes, 
seeking to fraudulently cast votes, seeking to impersonate the 
dead, I think those incidents are few and far between in our 
country.
    And what I think we are seeing today is a real struggle 
where people are trying to overcome very real barriers that 
stand between them and the ballot box, trying to overcome the 
burdens imposed by restrictive mandatory, government-issued 
photo identification requirements, trying to overcome tactics 
like what we are seeing in Macomb County.
    And although party officials have since backed down from 
their plans to use foreclosure lists to challenge voters, the 
chilling effect remains. And who knows how many voters may be 
discouraged or deterred from turning out on November 4 because 
of Macomb County officials' initial plan.
    So I remain very focused and think that we are all better 
served remaining focused on the substantial barriers and 
burdens that voters are up against today, and that we sometimes 
allow ourselves to be unnecessarily sidetracked by these 
isolated examples of vote-buying that you hear about from time 
to time.
    Mr. Conyers. Well, the only problem is, though, that some 
of the intimidation and coercion is not coming from citizens or 
other groups. It is coming from the government. I mean citizens 
didn't dream up ID, all these incredible barriers to people 
that don't even drive and can't even get to a place and 
couldn't afford it if they could.
    The foreclosure lists may have been dreamed up by a 
political party, but you know, as I think a little bit more 
about this, is that there seems to be two classifications of 
people in this country.
    There are some people that honestly want to restrict the 
right of the ballot. They want to make it tough, tough as they 
can, exclude as many people however you can. And there are 
other people that want to make it as open as you can, inclusive 
as you can, simple as you can.
    Isn't bad individuals that still have Election Day on a 
Tuesday. Why is it a government requirement that you have to 
vote after you get the kids to school however you can. You got 
to get to work. You got to hope the weather is good, all of 
this.
    But nobody says, ``Well, look, why do we that? Why don't we 
just have a day off for voting?'' which many modern countries 
have been doing for quite awhile now. That is not mal-
intentioned individuals. That is government. That is the ID 
notion. That is the make it tough as you can.
    If you are a student, how can you vote from your dormitory? 
You are signed up in Ann Arbor. You live in Ann Arbor. You 
can't vote in Lansing. I mean these are government initiatives. 
I am not talking about a few bad eggs floating around in the 
community. What about that? That is government-directed 
strategies that do not encourage voting and do not make it any 
fairer or safer or less fraudulent.
    Ms. Benson. Congressman, if I could add, as you may know, I 
live in the city of Detroit where a state legislator named Papa 
George, in 2004, was quoted as saying, ``If we do not suppress 
the Detroit vote, we are going to have a tough time in this 
election.'' And that was something that he talked about and was 
covered in The New York Times and other places.
    And so from my perspective and as I tried to make clear in 
my testimony, denials are denials. We know Acorn has also 
denied things. You know, the discussion still needs to go 
forward around clarifying the issue for voters, ensuring that 
voters know they are welcome and encouraged to participate on 
Election Day and also recognizing that there is at times a 
pattern of statements that are made, as you said, by government 
officials about suppressing the vote that does need to be 
emphasized.
    Mr. Terry. Yes, I think one of the core elements that I 
sort of took out of your remarks is when you talk about sports 
and, you know, doing anything to win is at the core of human 
nature, human nature to win.
    And human nature, you know, we all have morals and values 
and things that got us, that sort of draw us away from those 
more natural instincts. But when those aren't enough, we build 
laws and institutions, structures and government.
    And you talk about a lot of examples of where government is 
doing this, and in this country we are government by the 
people. And very often that government gets it wrong, and that 
is why it takes other people to fix the government.
    And so I don't have any solutions for any of those things, 
but it did strike me that, you know, human nature being bound 
by rules, morals and laws and government being bound by the 
people, and that is ultimately the solution.
    Mr. O'Leary. Mr. Chairman, I think I don't need to tell you 
this after your years of service to your country, but what I 
think this all comes down to is the difference between running 
for elected office for power or running for elected office 
because you want to serve your country.
    If it is about power, you are willing to do anything. If it 
is about service, you are only willing to do the right thing.
    Ms. Narasaki. One of the things I finally have figured out 
after about 20 years of doing this is--one of the challenges 
that I think really needs to be rethought about our system is 
we rely on the candidates and the parties to get people out to 
vote.
    And what we have seen with the immigrant community is 
because they are first-time voters and no one is sure how they 
are going to vote, there is actually no incentive by many of 
the parties or the candidates to actually get them out to vote.
    And I think government really needs to take a much more 
active role and responsibility in the realm of how do we make 
sure that people get the information they need, know what their 
rights and responsibilities are and get that real opportunity 
to vote.
    And we shouldn't rely anymore on private sectors because 
what it spawns is what you said. The example that came to mind 
when you were talking was the Department of Justice had to 
intervene in Bayou La Batre, Alabama.
    Now, there is a Vietnamese community in Bayou La Batre, 
Alabama. It is on the coast, and they are shrimpers. And for 
the first time, a Vietnamese-American was going to run for a 
local office.
    Well, the incumbent decided that the best way to prevent 
him from winning was to challenge the voter rolls of everybody 
who had an Asian name assuming, of course, that the Asians 
would vote for him.
    The Department of Justice intervened. What I found so 
striking about the story was that the people who challenged it 
were then supposed to be the main poll-workers in the general 
election, and that is the problem.
    We have to really take this more out of the hands of the 
teams, as you will, and put it more in a neutral forum so that 
what Mr. O'Leary refers to, the focus is on what the greater 
importance of democracy is for America and not on the short-
term wins and losses.
    Mr. Hancock. I guess my comments would be that, first of 
all, I could argue about the propriety of certain laws that we 
have. I mean if you are going to vote for President, why does 
it matter where you go? Everybody can vote for President.
    But at the same time, we are not going to change those laws 
before this election, and they are going to be enforced, and we 
are going to have live with them. And there is room for 
principle disagreement as to what the best result is, but there 
is no room for any disagreement that the national policy is 
reflected in the Voting Rights Act.
    And that is that while partisan politics can drive conduct, 
partisan politics cannot use race to drive that conduct so that 
to the extent--and I emphasize this repeatedly because I think 
it is so important, given the election that we are facing--that 
people are going to be identified as possibly supporting a 
particular candidate by the color of their skin. And 
suppression efforts likely are going to be directed just like 
the example that was given earlier based on that factor.
    So although the people doing it may claim that their 
motivating factor is partisan politics, that does not absolve 
them from liability under the Voting Rights Act because they 
are using race to carry that out. And this Congress passed a 
law 43 years ago that said you can't do that, and I would hope 
that that would be enforced stringently as we proceed to this 
election.
    And having been in the department for many years--I spent 
27 years in the Civil Rights Division of the Department of 
Justice--I know that there is a great reluctance to get 
involved with issues at the time of a presidential election 
because it might appear to be partisan.
    But over the years, the department has always addressed 
partisan issues. They have precleared redistricting plans that 
might favor one political over another or they have objected to 
redistricting plans that might favor one political party over 
the other.
    So that even though a particular vote-caging effort that is 
directed at African-Americans, a remedy for it might favor a 
political candidate, that is not a reason for the department 
not to act, and they have always been under a burden to act in 
a non-partisan way in enforcing this law. I recognize that it 
is very difficult for them to do it, but I would urge you to 
demand that they do it.
    Ms. Becker. I would like to emphasize something that I said 
in my opening remarks, which is that I have made clear, as Mr. 
Hancock has suggested, to everyone on the voting issues that we 
handle, that we need to enforce all of the statutes that we 
have. Where are the facts in law? Well, we have evidence and 
the law is there for us to bring a case, and to do so without 
regard to politics and just let the chips fall where they may 
at the end of the day. If we do our job, which is to vigorously 
enforce the laws under our authority, that is all we can do.
    Mr. Conyers. Well, I thank you all.
    Ms. Becker, let me ask you about another book. Have you 
ever heard of the book ``What Went Wrong in Ohio?'' It is about 
the 2004 election.
    Ms. Becker. I printed that off of the internet, but I 
haven't seen the actual bound copy of the book.
    Mr. Conyers. Well, you will immediately after this hearing. 
[Laughter.]
    Ms. Becker. Thank you.
    Mr. Conyers. You are more than welcome.
    Thank you, Mr. Chairman.
    Mr. Gonzalez.
    Thank you, sir.
    I don't believe that we have any other Members seeking 
recognition. Without objection, all Members will have 5 
legislative days to submit to the clerk of each Committee 
additional written questions for the witnesses, which will then 
be forwarded and then ask the witnesses to respond as promptly 
as they can so that their answers may be made part of the 
record.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion in the record.
    This hearing is now adjourned.
    [Whereupon, at 3:07 p.m., the Subcommittees were 
adjourned.]

















                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
